______ __ /JMbJEX__QJL-Aj££EAlJbJi££S________ _____
A ppgnAlxAAJ b enkl RiaU in
*£
(Aj) ILS'C. A.y * Oejnierk C*O.A.______________
B. U, 5, D,C.-A2-r£ ° Deniei______________________
__C,. Acre* C-h o f App^Js * Dente.A RgJ i ef
__
___D, Superior CauH- R>r N/Wicop^
* PemeA_.B^

__ £<J^C^^OXj^vpjgci>-cQk.J)^vIpg-(?.e^iostU^fcao-__
___F U. S,C, A °f c be/iieA NArrt-ion For Recoto<;rdg^x^ O.JQ
fe^PEMIBD BRADY EVIDENCE.^H, *K 5^, 6^, / t^AmoUmr^________________
X

PROCESS CLAUSE. CMu&ndt, Ee_Aju^ln_aJit/^i)

___IT. Title TIT

oma/isus

Act $/?P3____________

C..CM,TiTLE -nr $3.sio, $xs/i, $zs/s, $z-?/8, $^/&>
L. ARs<in>-mo^ii~rto7jn-3S(,o (m- qq!)

hL^&&UiBuZ2JXLsi^s=z&j^____ ;________
N. F.R.CR Rule, £,g <£>)<£_____ ;____________ _
O. usr Ho??. $1551__________________
P. USC, f2X5Y

____________________ _

O. A/?S f/W/6_________________________ __
R, A US PRoP lo1>
S. /Q^4*/fc
ORton-M*- G**N$£}£Lr*
~j^ (0*0 9'/5* ^ben/e/ (^i.~h Chet^^e^ Coc/nse,/
U, V\ftlZc Mo~Bce 0£ DgAe<xses 6lHr^
_______
V, j\A\SStMG- PSR AH'ackme^t OF VloLATiDys
W, V6>lD

(NJDICTMEMT- 6Prece*len-£)

S e44iemen4- C.o>(A~[~^rence

Ul/dcjjL- Rcj-i Ua~

LS

________ /NbtzX OF APPENDICES__________________
,Ag££Jv£Mj£. » . ([A A)-hEk]IEh R±.nXjSEl£L?'R£J>Be.S£UTA-TIOA/ .
A A. PrPSr~4e/iV- XuPPo?-hnc\ (Lons-fi CXdtrYi<_____ ____
B6. LA.'c. Bv P<LR COUNSEL
CC, Fe-i, F4a44es G^ven-uV,,, WlRE TAPS
D D, Rvjt-e- 11 vfolai-roft's C.Pr-e.ceJ.&yj)______

EL E. Risk

assf^smemt__________

t~ F. Dg-nifcA v R&^tue^-t- Fob. R&corAi by Ari2,Ej-„4ppl?
G-, (S-. A-PR4avi4s QP dw^-oRi— FAmtLY
14 14. " D EPRAV/'TloK/ OF RlG-RTS_______
I I. XKIMATE LEG-AL SERVICES
3~ ,T. Wn~(-ii4EL.D EwibEvc-E BV X.A,C.
KK '•'False confess\ou-police. rej^rtLL "PASSEp Poi_Y6-RAPH -AAAp^cc.

I MM. *A/)ee>;c4l. Exam -nomml
■ k! i\l " GrRAh/b TUR y /°£A J~u/Z. V"
_ Oo, "5EMTEMC INJfr TFsAWScript-Dg*M~eA
_ PP, '' CHAMGrB OF PLE-A H&ARINO-' violations
s?

tS.S- ^PERJ-UKY IN SIMPSoA/ bail HEARING*
QQ, CMAY
2:l« cV -oofo<? -A/S/W 3-2-S-IT)
_ RR, BR/EF OF AMICUS auRlAE-Q^PP^Hrj^
M'XX. PKE-SEAJTBA/CE REfieRT |

"

""

’

_ I TT GrOvf. Actor "UMER Color of state
_ j UU. DOUBLE LTeaPARLV - "Mi^TIPliCF.oi s'dec 3 0 2020
VV, Bl BfE- Co / ^
OQUfK&F. S
CLsEjVT/ FI C# "Lg^cE of the clerk
jT V/V/ jV&l£i)/TlofyfAL- foFF&CT“
II XX~r PRF - SBAlTBM CJM(t PlkpOlFT —tyf/£Z/A/Or Athulmeur

1

-

FILED

UNITED STATES COURT OF APPEALS

SEP 15 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROGER DARRYL WALDREP,
Petitioner-Appellant,
v.
DAVID SHINN, Director; ATTORNEY
GENERAL FOR THE STATE OF
ARIZONA,

No. 20-16148
D.C. No. 2:17-cv-04609-DWL
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

RAWLINSON and BRESS, Circuit Judges.

We have considered all filings submitted by appellant in support of his
request for a certificate of appealability. The request for a certificate of
appealability is denied because appellant has not shown that “jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S.
473, 484 (2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012); Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
All pending motions and requests are denied as moot.
DENIED.

Case: 2:17-cv-04609-DWL

Document 74

Filed 04/30/20

Page 1 of 7

WO

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

Roger Darryl Waldrep,
Petitioner,

No. CV-17-04609-PHX-DWL
ORDER

v.

Charles L Ryan, et al.,
Respondents.
On December 13, 2017, Petitioner filed a petition for writ of habeas corpus under
28 U.S.C. § 2254 (“the Petition”). (Doc. 1.) On December 20, 2019, Magistrate Judge
Bibles issued a Report and Recommendation (“R&R”) concluding the Petition should be
denied.

(Doc. 53.)

Afterward, Petitioner filed objections to the R&R (Doc. 55),

Respondents filed a response (Doc. 69), and Petitioner filed a reply (Doc. 71). For the
following reasons, the Court will overrule Petitioner’s objections to the R&R and terminate
this action.
I.

Background
The relevant factual and procedural background is set forth in the R&R.

In

summary, in late November 2013, Petitioner molested his 11-year-old step-daughter by
rubbing her breasts, licking her vagina, and rubbing her anus. (Doc. 53 at 1.) A few days
later, Petitioner made various admissions during a phone call that, unbeknownst to him,
was being recorded by the police. (Id. at 2.) Petitioner also made similar admissions to his
28

brother and to the victim’s mother. (Id. at 2 & n.l.)

Appewimx B

Case: 2:17-cv-04609-DWL

Document 74

Filed 04/30/20

Page 2 of 7

1

Following his arrest in December 2013, Petitioner was initially represented by

2

retained counsel. (Id. at 2-3.) However, in May 2014, Petitioner’s retained counsel

3

withdrew from the representation and Petitioner obtained appointed counsel. (Id. at 3.)

4

The trial court then “granted numerous motions to continue so that [new counsel] could

5

investigate the case and conduct plea negotiations.” (Id.)
In October 2015, Petitioner attended a settlement conference. (Id.) During the

7

conference, the prosecutor offered a plea deal with a stipulated sentencing range of 20-24

8

years’ imprisonment, which Petitioner rejected because “he would not acquiesce to a prison

9

sentence.” (Id. at 4.) Petitioner also “read a statement professing remorse for his actions”

- 10

and “attribut[ing] his actions to a deer antler testosterone spray prescribed by his doctor for

11

chronic fatigue.” (Id.) After the settlement conference, Petitioner sought and obtained new

12

appointed counsel. (Id. at 5.)

fty

0

#

\N»°

13

In February 2016, Petitioner attended a second settlement conference. (Id.) During

14

this conference, the prosecutor informed Petitioner that his deer-antler-spray defense was

15

“problematic because [Petitioner] had voluntarily used the deer antler spray, and voluntary

16

intoxication was not a defense under Arizona law.” (Id. at 6.) Nevertheless, the prosecutor

17

informed Petitioner “that he was willing to deviate from the typical offer and offer

18

[Petitioner] a sentencing range of 17 to 24 years’ imprisonment,” contingent upon

19

obtaining supervisory and victim approval. (Id.) Petitioner responded by stating that a 17-

20

to-24-year sentence would be a disproportionate and unreasonable punishment for “five

21

minutes” when he “really screwed up.” (Id.) After some additional back and forth, during

22

which the prosecutor stated that no better plea offers would be forthcoming, the settlement

23

judge stated that the conference was over and the trial date would be affirmed. (Id. at 8.)

24

In response, Petitioner stated: “I won’t turn it down yet.” (Id.)
On March 3, 2016, Petitioner attended a third settlement conference. (Id.) During

dj'

V*1

26

this conference, Petitioner’s counsel acknowledged that the case against Petitioner was

27

“relatively straightforward” because he had “confessed three different times to three

28

different people.” (Id. at 8-9.) After further discussion, during which the prosecutor again

-2-

Case: 2:17-cv-04609-DWL

Document 74

Filed 04/30/20

Page 3 of 7

confirmed that no better plea deals would be forthcoming, Petitioner stated that he wanted
to have “a few days to talk with family” about whether to accept the current offer. (Id. at
9.)
4

On March 9, 2016, Petitioner signed a written plea agreement that provided for a

5

stipulated sentencing range of 17-24 years. (Id.) During the change-of-plea hearing,

6

Petitioner was represented by counsel and repeatedly confirmed that he understood the plea

7

agreement and had not been forced, threated, or coerced into pleading guilty. (Id. at 9-12.)

8

On April 11,2016, Petitioner’s sentencing hearing took place. (Id. at 12.) Although

9

the prosecutor asked for a 24-year sentence, the judge imposed the lowest possible sentence

10

that was available under the plea agreement of 17 years. (Id. at 12-14.)

11

After sentencing, Petitioner filed a timely notice of post-conviction relief (“PCR”)

12

pursuant to Rule 32 of the Arizona Rules of Criminal Procedure. (Id. at 14.) The trial court

13

appointed PCR counsel, but counsel filed a notice averring that he was unable to identify

14

any colorable claims for relief. (Id. at 15.) Petitioner thereafter filed a “revised” PCR

15

petition that “included extensive exhibits” and listed “34 separate claims of error.” (Id. at

16

15.)

17

On October 25, 2016, the trial court denied relief. (Id.) Among other things, the

18

court concluded that Petitioner could not prevail on a claim of ineffective assistance of

19

counsel (“IAC”) because he could not demonstrate deficient performance or prejudice. (Id.

20

at 15-16.)

21
22
23
24

25
26
27

On November 20,2016, Petitioner filed a petition for review with the Arizona Court
of Appeals that raised 28 claims of IAC. (Id. at 16-17.)
On November 29, 2017, the Arizona Court of Appeals granted review and denied
relief. (Id. at 17-18.)
In December 2017, Petitioner filed the Petition. It asserts 65 grounds for relief. (Id.
at 18-23 [summarizing grounds].)
Between December 2017 and the present, Petitioner filed an array of often frivolous

28

-3-

Case: 2:17-cv-04609-DWL

Document 74

Filed 04/30/20

Page 4 of 7

motions.1 Additionally, Petitioner filed a petition for a writ of mandamus (Doc. 51), which
the Ninth Circuit denied in November 2019 (Doc. 67), and a premature notice of appeal
(Doc. 65), which the Ninth Circuit dismissed in February 2020 (Doc. 68).
The R&R was issued in December 2019. (Doc. 53.) It is 51 pages long and
painstakingly analyzes each of Petitioner’s 65 asserted grounds for relief. First, the R&R
concludes that Ground 4 must be rejected because it alleges errors during the PCR process,
which are not cognizable on federal habeas review. {Id. at 18 n.6.) Second, the R&R
concludes that Grounds 1-3,5-15,17-18, 53-54, and 60 must be rejected because they raise
pre-plea claims of non-jurisdictional error, yet such claims are considered procedurally
defaulted under Arizona law upon entry of a guilty plea, this Arizona law constitutes an
independent and adequate state ground barring federal habeas review, and Petitioner cannot
evade these principles because his guilty plea was knowing and voluntary. {Id. at 24-26,
30-32, 37-40.) Third, the R&R concludes that Grounds 16, 56, and 64 must be rejected
because Petitioner failed to present them to the Arizona Court of Appeals, rendering them
procedurally defaulted without cause. {Id. at 26-29.) Fourth, the R&R concludes that
Grounds 19-38,40-42,44,46-47,51-52,55, and 58, all of which raise claims of IAC before
or during the guilty plea, must be rejected because Petitioner cannot demonstrate deficient
performance, Petitioner cannot demonstrate prejudice, and/or the claim is procedurally
defaulted due to the guilty plea. {Id. at 33-37, 40-46.) Fifth, the R&R concludes that the
remaining claims (Grounds 39,43,45,48,49,50,57,59,61,62,63, and 65) fail for various
reasons. {Id. at 46-49.)

1
Doc. 3 (motion for judgment); Doc. 6 (motion for summary judgment); Doc. 9
(motion to vacate judgment); Doc. 10 (motion for relief); Doc. 14 (motion for answers to
previous motions); Doc. 21 (motion to appoint counsel); Doc. 22 (motion to produce
transcripts); Doc. 31 (motion for direct ruling); Doc. 33 (motion for judgment as a matter
of law); Doc. 34 (motion for ruling); Doc. 36 (motion for ruling); Doc. 39 (motion to enter
newly discovered evidence); Doc. 40 (motion for status update); Doc. 41 (motion for final
judgment or summary judgment); Doc. 43 (motion for de novo review); Doc. 45 (motion
for reconsideration); Doc. 46 (motion for change of judge); Doc. 47 (motion to vacate
judgment); Doc. 49 (motion to appoint counsel); Doc. 52 (motion for status hearing); Doc.
61 (motion invoking mailbox rule); Doc. 62 (motion to stop Brady violations); Doc. 72
(motion for summary judgment).
-4-

Case: 2:17-cv-04609-DWL

II.

Document 74

Filed 04/30/20

Page 5 of 7

Legal Standard
A party may file written objections to an R&R within fourteen days of being served

with a copy of it. Rules Governing Section 2254 Cases 8(b) (“Section 2254 Rules”). Those
objections must be “specific.” See Fed. R. Civ. P. 72(b)(2) (“Within 14 days after being
served with a copy of the recommended disposition, a party may serve and file specific
written objections to the proposed findings and recommendations.”) (emphasis added).
District courts are not required to review any portion of an R&R to which no specific
objection has been made. See, e.g., Thomas v. Am, 474 U.S. 140, 149-50 (1985) (“It does
not appear that Congress intended to require district court review of a magistrate’s factual
or legal conclusions, under a de novo or any other standard, when neither party objects to
those findings.”); United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir. 2003)
(“[T]he district judge must review the magistrate judge’s findings and recommendations
de novo if objection is made, but not otherwise.”). Thus, district judges need not review
an objection to an R&R that is general and non-specific. See, e.g., Warling v. Ryan, 2013
WL 5276367, *2 (D. Ariz. 2013) (“Because de novo review of an entire R&R would
defeat the efficiencies intended by Congress, a general objection ‘has the same effect as
would a failure to object.’”) (citations omitted); Haley v. Stewart, 2006 WL 1980649, *2
(D. Ariz. 2006) (“[Gjeneral objections to an R & R are tantamount to no objection at all.”).2
III.

Analysis
Although Petitioner has filed lengthy objections to the R&R (Doc. 55),3 his

objections are too vague and generalized Jo permit meaningful review. For example, the
objections begin by asserting that “none of [Petitioner’s] constitutional claims and
See generally S. Gensler, 2 Federal Rules of Civil Procedure, Rules and
Commentary, Rule 72, at 422 (2018) (“A party who wishes to object to a magistrate judge’s
ruling must make specific and direct objections. General objections that do not direct the
district court to the issues in controversy are not sufficient.... [T]he objecting party must
specifically identify each issue for which he seeks district court review ....”).
3
See generally Doc. 59 at 2 (denying Resp ondents’ motion to strike Petitioner’s
objections but clarifying that “[t]o the extent tnie ‘exhibits’ to Petitioner’s objections
contain any arguments not presented in the 17-page objections, such arguments wiill not be
considered by the Court”).

-5-

Case: 2:17-cv-04609-DWL

Document 74

Filed 04/30/20

Page 6 of 7

supporting law, precedent of 100’s of U.S. Sup[reme] C[ourt], and Fed[eral] District Court
ruling were given PROPER CONSIDERATION or mentioned by Magistrate Bibles in the
R&R” and that “[f]or this Court to be just, upon reviewing entire record ANEW, DE­
NOVA, IT WILL GRANT RELIEF REQUESTED.” (Id. at 2.) Similarly, on the next
page, Petitioner contends that “[Petitioner] overcomes ALL PROCEDURAL BARS,
DENIED ANY REVIEW OF CLAIMS, based on jurisdiction, state adjudicated claims
‘ON MERITS’ or ANY DEFAULTS denied by [Petitioner].” (Id. at 3.) These are not
proper objections to an R&R—they offer only conclusions and fail to explain, with any
specificity, why the R&R’s analysis was erroneous.4
Similarly, although Petitioner has offered some citations to case law, those
references merely consist (as Respondents point out in their response) of “listing] a
number ofTegal propositions and cases without explaining how they even relate[] to his
claims (let alone how they would allegedly undermine the R&R’s reasoning).” (Doc. 69
at 2.) Once again, this is insufficient to permit meaningful review under Rule 72(b).
The bottom line is that Petitioner’s generalized objections to the R&R leave the
Court with nothing to review. Warling, 2013 WL 5276367 at *2; Haley, 2006 WL 1980649
at *2; Gensler, supra, at 422. Thus, the Court will adopt the R&R’s recommended
disposition.
Accordingly, IT IS ORDERED that:
(1)

Petitioner’s objections to the R&R (Doc. 55) are overruled.

(2)

The R&R’s recommended disposition (Doc. 53) is accepted.

(3)

The Petition (Doc. 1) is denied.

(4)

A Certificate of Appealability and leave to proceed in forma pauperis on

4

Petitioner’s reply is similarly filled with conclusory assertions. (See, e.g., Doc. 71
at 2 [“[Petitioner] again proclaims all his 65 constitutional grounds presented in his habeas
corpus petition, [Petitioner] PROVES ALL GROUNDS ARE PROVEN TRUE,
TRU- and
COLORABLE by his established records, transcribes, notarized affidavits of facts , audio
recordings; video recordings presented in States EVIDENCE.”]; id. at 3 [“[Petitioner] has
clearly, unequivocally; has UNIFORMALLY pointed out all of his SPECIFIC
CONSTITUTIONAL VIOLATIONS he suffered and has presented specific CASE LAW;
rights, privileges, his transcrip ts, records, affidavits of facts; and AGAIN REQUESTS HIS
DENIED BRADY MATERIALS.”].)

A

-6-

Case: 2:17-cv-04609-DWL

Document 74

Filed 04/30/20

Page 7 of 7

1

appeal are denied because Petitioner has not made a substantial showing of the denial of a

2

constitutional right.

3

(5)

The Clerk shall enter judgment accordingly and terminate this action.

4

Dated this 29th day of April, 2020.

5
6
7

W* Ltaii
Hotted StaSas l&friet Judge

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

-7 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 1 of 51

1
2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9
10

Roger Darryl Waldrep,
Petitioner,

11
12
13

No. CV 17-04609-PHX-DWL (CDB)
REPORT AND
RECOMMENDATION

v.
Charles L. Ryan, Attorney General of the
State of Arizona,

14

Respondents.

15
16

TO THE HONORABLE DOMINIC W. LANZA:

17

Petitioner Roger Waldrep, proceeding pro se, filed a petition seeking a writ of

18

habeas corpus pursuant to 28 U.S.C. § 2254 on December 8, 2017. Respondents filed an

19

answer to the petition for habeas corpus relief on November 21, 2018, (ECF No. 29), and

20

Waldrep docketed a reply to the answer to his petition on December 3, 2018. (ECF

21

No. 32).

22

I.

Background

23

A.

State criminal proceedings

24

The following facts are taken from the presentence report:

25

On November 30, 2013, the defendant rubbed the breasts of his eleven year
old stepdaughter, Victim A. He then licked her vagina twice and rubbed her
anus with his hands. He went to touch her anus with his penis when
Victim A pulled up her pants and ran away. On December 1, 2013,
Victim A wrote a letter to her mother stating she did not want to do
anything with Waldrep anymore[,] and the allegations were reported to the

26
27

28

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 2 of 51

1

Gilbert Police Department. On December 3, 2013, police conducted a
forensic interview with eleven year old Victim A and a confrontation call
between [K.A.] (mother of Victim A) and the defendant. He admitted to
licking Victim A’s vagina and was subsequently arrested. He invoked his
right to silence and a police interview was not conducted. i

2
3
4
5

(ECF No. 29-2 at 45; see also ECF No. 29-1 at 142).

6

On December 6, 2013, at the conclusion of a hearing at which Waldrep was

7

represented by retained counsel, the Maricopa County Superior Court found Waldrep was

8

“Not Bailable as a matter of Right,” and that he should not be released because he was

9

charged with molestation of a child under the age of fifteen. (ECF No. 29-1 at 22). A

10

Maricopa County grand jury indictment returned December 11, 2013, charged Waldrep

11

with two counts of molestation of a child, one count of sexual abuse, and two counts of

12

sexual conduct with a minor; all of the counts were charged as a dangerous crime against

13

children. (ECF No. 29-1 at 46-48). All of the charged counts were alleged to have

14

occurred on the same date and involved the same victim, Waldrep’s eleven-year-old

15

stepdaughter. (Id.; ECF No. 29-2 at 45).

16

On December 13, 2013, Waldrep’s retained counsel moved the trial court for a

17

hearing and asked the court to release Waldrep on his own recognizance, to a third-party,

18

to pre-trial supervision, or on bond. (ECF No. 29-1 at 52-57). At the conclusion of a

19
i

20
.21
22
23
24
25
26
27
28

Prior to contacting the police the victim’s mother asked Waldrep if the victim’s
accusation of sexual contact was true and he “did admit to licking her anus and he said it was
very quick.” (ECF No. 29-1 at 31). During a confrontation call Waldrep denied having admitted
to licking the victim but agreed he “caressed” her. (ECF No. 29-1 at 39). The police detective
who investigated the case and conducted a forensic interview with the victim told the grand jury
he had spoken to Waldrep’s brother and Waldrep admitted to his brother that he had licked the
victim as she described. (ECF No. 29-1 at 40).
2 This exhibit attached to Respondents’ Answer includes a Release Questionnaire dated
December 6, 2013, which states:
On December 3, 2013 at about 2100 hours, Roger Waldrep was arrested in Mesa,
AZ and transported to Gilbert Police Department. At about 2140 hours I
attempted to conduct an interview with Roger Waldrep. Upon walking into the
room Roger stated that he wouldn’t talk without his attorney present. I read Roger
his Miranda Warnings and he remained silent. I concluded my interview at that
time.
-2-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 3 of 51

1

hearing conducted December 20, 2013, at which Waldrep was represented by his retained

2

counsel, the state trial court concluded there was sufficient evidence Waldrep committed

3

four of the counts alleged in the indictment and, accordingly, that he was not eligible for

4

release on bond pursuant to Arizona Revised Statutes § 13-3961. (ECF No. 29-1 at 62-

5

63).3

6

An initial pretrial conference was conducted January 31, 2014. (ECF No. 29-1

7

at 69). Waldrep was represented by retained counsel at this pretrial conference. {Id.). The

8

parties were ordered to conduct a good faith discussion regarding settlement prior to the

9

Comprehensive Pretrial Conference, which was set for March 5, 2014. (ECF No. 29-1

10

at 70). On February 4, 2014, Waldrep’s retained counsel filed a Notice of Defenses,

11

which included insufficiency of the State’s evidence; insanity; lack of specific and

12

criminal intent; diminished capacity; duress; and good character. (ECF No. 29-1 at 75-

13

76). On March 5, 2014, the matter was deemed a complex case based on the number and

14

nature of the charges against Waldrep. (ECF No. 29-1 at 83).

15

On May 1, 2014, Waldrep’s retained counsel was given leave to withdraw because

16

Waldrep could “no longer meet his obligations under the representation agreement,” and

17

Ms. Workman was appointed as Waldrep’s counsel. (ECF No. 29-1 at 87, 90, 93). The

18

trial court granted numerous motions to continue so that Ms. Workman could investigate

19

the case and conduct plea negotiations. (ECF No. 29-1 at 92, 95, 96-97, 98, 99-100, 105,

20

111, 115-16). The trial court also permitted Waldrep to be tested for a “full psychological

21

assessment,” including a risk assessment and a psychosexual evaluation. (ECF No. 29-1

22

at 122, 124).

23

At a settlement conference conducted October 2, 2015, the State offered Waldrep

24

a plea deal providing for a sentence of 20 to 24 years’ incarceration, followed by lifetime

25
26
27
28

3

This statute precludes release when “proof is evident or the presumption great that the
person is guilty of the offense charged,” and the charged offense charged is sexual conduct with
or molestation of a minor under thirteen years of age.
-3 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 4 of 51

1

probation. (ECF No. 29-6 at Exh. GGGG).4 Waldrep responded that he was willing to

2

serve a term of probation, but he would not acquiesce to a prison sentence. (Id). The

3

settlement judge noted the types of obstacles Waldrep might face if he went to trial. (Id.).

4

The judge also explained that the jurors would not be aware of the applicable sentencing

5

laws and that there was a legal difference between mitigation evidence and an affirmative

6

defense. (Id.). The settlement judge told Waldrep he was not entitled to a plea offer and

7

that a group of lawyers who specialized in this area, rather than a single prosecutor,

8

determined the plea offered to Waldrep. (Id.). After each explanation, the settlement

9

judge asked Waldrep if he understood and he responded, “Yes.” (Id.).

10

At the settlement conference Waldrep, at times sobbing, read a statement

11

professing his remorse for his actions. (Id.). He offered many instances of his past

12

behavior as a good citizen, noting his lack of any criminal record, his lack of drug and

13

alcohol abuse, and his history working as a corrections officer. (Id.). Waldrep attributed

14

his actions to a deer antler testosterone spray prescribed by his doctor for chronic fatigue.

15

(Id.). He claimed not to have any sexual interest in children, and asked to be placed on

16

probation. (Id.)

17

The prosecutor responded by explaining that a plea offer in this type of case would

18

normally be harsher, i.e., that given the age of Waldrep’s victim the offer would typically

19

require Waldrep to receive a sentence of 35 years’ imprisonment. (Id.). The prosecutor

20

also addressed Waldrep’s claim that he had no sexual interest in children. (Id.). She stated

21

that a portion of his risk assessment, the “objective able” test, indicated Waldrep had an

22

interest in six to 13-year-old female children. (Id.). The prosecutor also noted that

23

Waldrep had not been using the deer antler spray when he took the risk assessment test.

24

(Id.).

25
26
27
28

4 Exhibits GGGG and HHHH to Respondents’ Answer to the habeas petition are video
recordings of Waldrep’s first and third state pre-trial settlement conferences, conducted October
2, 2015, and March 3, 2016. See ECF No. 30. No court reporter was present at the hearings and
the hearings were not transcribed. However, both conferences were preserved using a digital
video recording. Id. The Court has thoroughly reviewed both video recordings to verify the
accuracy of the Answer’s factual statements as repeated in this Report and Recommendation.
-4-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 5 of 51

1

The settlement conference judge told Waldrep that if he proceeded to trial the

2

jurors would not have the results of the polygraph test or be able to take into account his

3

use of the deer antler spray. (Id.). He explained that this information was “great

4

mitigation,” but if Waldrep went to trial and was convicted he would not be dealing with

5

mitigation because of the nature of the sentence. (Id.). Waldrep stated that he intended to

6

join a class action lawsuit regarding the deer antler spray, and the settlement judge

7

explained that the results of any class action lawsuit would not implicate his guilt because

8

under the law voluntary intoxication was not a defense to criminal charges. (Id.). The

9

judge explained that, because Waldrep used the spray voluntarily, any condition caused

10

by it would be considered voluntary intoxication notwithstanding that his doctor had

11

prescribed the testosterone treatment. (Id ). The judge further explained that Waldrep

12

could try to argue that the spray caused him to be insane, but noted that even if this

13

argument was successful Waldrep would be committed to 35 years in the state mental

14

hospital and if he recovered” he would serve the balance of the sentence in state prison.

15

(Id.).

16

After the settlement conference Waldrep moved to change counsel. (ECF No. 29-1

17

at 126-27). The court granted the motion. (ECF No. 29-1 at 129-30). Mr. Kimble was

18

appointed and he represented Waldrep at the next settlement conference, conducted

19

February 12, 2016. (ECF No. 29-1 at 146-48). During the second settlement conference a

20

different state judge explained that he was there to help Waldrep understand his options.

21

(ECF No. 29-1 at 153-58).

22

The prosecutor explained the penalties Waldrep faced if he went to trial:

23

To get to the bottom line, if you’re convicted at trial of the sex
conduct with a minor, you could face up to life in prison because of the age
of the victim and the nature of the act. That’s pursuant to Arizona law.
. . . They have to be mandatory consecutive, both of the sex
conducts, and one of the molests has to be consecutive to that. But—and
that means stacked, back to back to back. But at the end of the day, you’re
facing a life sentence. Okay? Or what could be a life sentence, depending
on if you—if you’re only convicted of one or the other. So your exposure is
very large, as I’m sure you know.

24
25
26
27
28

-5-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 6 of 51

1

(ECF No. 29-1 at 159-60).

2

The prosecutor further explained that if the case went to trial the jurors would hear

3

the victim’s testimony and the confrontation call, in which Waldrep had made some

4

partial admissions. (ECF No. 29-1 at 160). The prosecutor also noted that Waldrep’s

5

defense

6

when abusing the victim—was a novel one that his office (which dealt exclusively with

7

sex crimes) had never heard before. (ECF No. 29-1 at 160-61). He also explained that,

8

aside from the novelty of the defense, it would also be problematic because Waldrep had

9

voluntarily used the deer antler spray, and voluntarily intoxication was not a defense

10

under Arizona law. (ECF No. 29-1 at 161).5 The prosecutor told Waldrep he was willing

11

to deviate from the typical offer and offer him a sentencing range of 17 to 24 years’

12

imprisonment. (ECF No. 29-1 at 163). The prosecutor further explained that the offer of

13

17 to 24 years would be contingent on the prosecutor’s ability to obtain approval from his

14

supervisor and he would have to seek feedback from the victim’s family. (Id.).

that he had been “under the influence of deer antler spray, hormonal spray”

15

In response, Waldrep listed what he believed were comparable sentences received

16

by other inmates, arguing that the offer of 17 to 24 years’ imprisonment was

17

disproportional to his alleged crimes. (ECF No. 29-1 at 164-65, 168-69). He noted he had

18

a spotless record, that he had “passed two polygraphs,” and that he had “self-reported

19

[his actions] to [his] wife.” (ECF No. 29-1 at 165). Waldrep argued that under these

20

circumstances 17 to 24 years’ imprisonment was an unreasonable punishment for the

21

“five minutes of [his] life” when he “really screwed up.” (Id.). Waldrep’s counsel

22

interjected that, although some individuals had received lighter sentences, the lighter

23

sentences took into account the difference in the other defendants’ relationships with their

24

victims and the available evidence of their wrongdoing. (ECF No. 29-1 at 164-65). The

25

settlement judge told Waldrep that he would be able to challenge the proportionality of

26
27
28

5 Waldrep clarified that he had also used a prescribed synthetic testosterone “therapy,”
i.e., Axiron. (ECF No. 29-1 at 162; ECF No. 32 at 6).
-6-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 7 of 51

1

his sentence on appeal if he went to trial and was convicted, but reminded him that the

2

State was under no obligation to offer Waldrep a plea deal. (ECF No. 29-1 at 166).

3

The prosecutor noted many distinguishing facts in the cases cited by Waldrep,

4

including that in one case the perpetrator was an eighteen-year-old involved in a

5

consensual relationship with a thirteen-year-old, making the case “vastly different” than

6

Waldrep’s, which involved a 48-year-old man abusing his eleven-year-old stepdaughter.

7

(ECF No. 29-1 at 169-70). He reassured Waldrep that he was not being treated “any

8

differently than anyone else,” asked Waldrep whether he was willing to go to trial and

9

risk an even longer term of imprisonment than that provided by the plea agreement. The

10

14

prosecutor reminded Waldrep that the State had already deviated from its typical offer:
■ • -[D]° you want to be sitting in prison for the rest of your life knowing
that we gave you an offer—and it is a deviated offer. We start at 35 years in
these cases.... I’m even offering to drop it down to an open range, a 17-to24 range. Or do you want to take—or do you want to take a deal and at
some point in your life be released? ... You need to stop looking at other
people around you because it doesn’t really matter.

15

(ECF No. 29-1 at 170-71).

11
12
13

16

In response, Waldrep claimed that a psychiatrist had told him that testosterone

17

treatment therapy made people “psychotic” and caused them to act out sexually. (Id.).

18

Defense counsel pointed out that, even so, “there was a difference between sexual

19

conduct with an adult female and sexual conduct with a minor.” (ECF No. 29-1 at 172).

20

The settlement judge reiterated that the defense would fail regardless because Waldrep

21

voluntarily used the testosterone treatment. (ECF No. 29-1 at 172-73).

22

Waldrep asserted he deserved to serve only five years, stating “I’m not a criminal”

23

and arguing the acts had only lasted five minutes and he had spent a lifetime working

24

with “a thousand customers” but “not one complaint.” (ECF No. 29-1 at 173). He stated

25

he was unlike the “thugs” and “criminals” he had met in jail who were “bad people” and

26

“really need[ed]” to be “put away for life.” (ECF No. 29-1 at 174). He promised to be “a

27

pillar in the society” if he were allowed to serve only five years. (ECF No. 29-1 at 174-

28

75).

-7-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 8 of 51

1

The settlement judge then expressed his belief that the State would not offer a plea

2

agreement involving less than 17 to 24 years’ imprisonment. (ECF No. 29-1 at 175).

3

Waldrep replied he could not believe they were “talking about throwing [his] life away”

4

when he had not had intercourse with the victim. (ECF No. 29-1 at 176). The prosecutor

5

then stated:

6

12

Well, I’m just going to say what the judge said is correct. It’s not going to
get any better. Okay? You’re not going to get five years. That’s just not
going to happen. So either you are willing to come to grips and understand
that you’re getting a chance to get out at some point in your life, or we’ll
take you to trial and you take your chances there.
WALDREP: So someone that self-reports gets treated much worse than
someone who hides and does a crime well. That’s what you’re telling me.
That doesn’t make sense.
PROSECUTOR: I’m just—I’m just going to tell you that’s what your
options are....

13

(ECF No. 29-1 at 176-77). Because the parties had not reached an agreement, the

14

settlement judge affirmed the trial date. Waldrep then spontaneously volunteered, “I

15

wouldn’t turn it down yet.” (ECF No. 29-1 at 177).

7
8
9
10
11

16

A third settlement conference, which began as a status conference, was conducted

17

March 3, 2016. No court reporter was present at the hearing and it was not transcribed,

18

but it was recorded by videotape. (ECF No. 26-9. See also supra at n.l). During a bench

19

conference defense counsel alerted the court that Waldrep might want to “go pro per.”

20

(Id). Defense counsel stated that he was ready to go to trial because it was “not a difficult

21

case, involved only “one incident,” and “basically, [Waldrep] confessed three separate

22

times to three different people, including the State.” (Id). When the judge asked Waldrep

23

whether he was asking to represent himself, Waldrep replied, “Yes, I need an

24

investigator.” (Id.). The judge asked Waldrep why he wanted an investigator and he

25

replied: “to investigate details of the case, certain cases, and the doctor’s opinion.” (Id.).

26

During this discussion defense counsel noted he had explained to Waldrep that he “was

27

asking for an investigator with respect to an issue that is not a legal defense at trial,” and

28

that both settlement conference judges had told Waldrep the same thing with regard to his

-8-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 9 of 51

1

proposed defense regarding his use of testosterone therapy. (Id.). Defense counsel

2

explained that because this was “a relatively straightforward case,” he believed an

3

investigator was unnecessary. (Id.). Waldrep then volunteered that he would “take a plea

4

if it’s soft time.” (Id.). After further discussion the judge confirmed that the current plea

5

deal was the most lenient the State would offer, and asked Waldrep if he wanted to take

6

the plea. (Id). Waldrep asked to have “a few days to talk with family” about whether he

7

should take the plea offer, and the prosecutor agreed to keep the offer open for six more

8

days. (Id.). The judge kept the scheduled trial date on the calendar “in case it doesn’t

9

resolve.” ((Id. See also ECF No. 29-1 at 184).

10

The parties signed a written plea agreement on March 9, 2016. (ECF No. 29-1

11

at 184). Waldrep also initialed each paragraph of the written plea agreement. (ECF No.

12

29-1 at 186-88). Waldrep agreed to plead guilty to one count of molestation of a child

13

(Count 1 of the indictment) and two counts of attempted molestation of a child (Counts 2

14

and 4 of the indictment, as amended). (ECF No. 29-1 at 186). The parties stipulated that

15

all of the crimes occurred on November 30, 2013, when the victim was eleven years of

16

age. (Id.). The plea agreement noted the minimum sentence of ten years’ imprisonment,

17

the maximum sentence of 24 years’ imprisonment, and the presumptive sentence of 17

18

years’ imprisonment on Count 1. (Id.). The agreement noted the minimum sentence of

19

five years imprisonment, the maximum sentence of 15 years’ imprisonment, and the

20

presumptive sentence of ten years’ imprisonment on Counts 2 and 4. (Id.). The plea

21

agreement provided that Waldrep would serve a term of 17 to 24 years’ imprisonment

22

pursuant to his conviction on Count 1, and that he would be placed on lifetime probation

23

pursuant to his guilty pleas on Counts 2 and 4. (ECF No. 29-1 at 187). In return for

24

Waldrep’s guilty pleas the State agreed to dismiss both remaining counts of the

25

indictment. (Id.).

26

In the written plea agreement Waldrep agreed to “waive[] and give[] up any and

27

all motions, defenses, objections, or requests which he has made or raised, or could assert

28

hereafter, to the court’s entry of judgment against him and imposition of a sentence upon

-9-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 10 of 51

1

him consistent with this agreement.” {Id.). Waldrep acknowledged that “[b]y entering this

2

agreement, the Defendant further waives and gives up the right to appeal.” {Id.). The

3

signed plea agreement affirmed Waldrep had “discussed the case” and his “constitutional

4

rights” with his counsel, and that his counsel had “explained the nature of the charge(s)

5

and the elements of the crime(s)” to which Waldrep was pleading guilty. (ECF No. 29-1

6

at 188). In the plea agreement Waldrep also acknowledged he was waiving various

7

constitutional rights, including his right to a “trial by jury to determine guilt,” his right to

8

be free of self-incrimination, and his right to confront the witnesses against him. {Id.).

9

Waldrep averred his guilty pleas were “voluntary and not the result of force, or threat, or

10

promises other than those contained in the plea agreement.” (Id.).

11

A Superior Court Commissioner conducted a plea colloquy with Waldrep on

12

March 9, 2016, at a hearing where Waldrep was represented by counsel. (ECF No. 29-1

13

at 208-24). The Commissioner confirmed that Waldrep had read and understood the

14

written plea agreement. (ECF No. 29-1 at 214-18). When the Commissioner asked

15

Waldrep if he had taken any drugs, alcohol, or medication, Waldrep responded that he

16

had taken medication, but clarified that the medication did not interfere with his ability to

17

think clearly. (ECF No. 29-1 at 212-13). Fie confirmed he was thinking clearly and

18

understood everything the Commissioner was saying. (ECF No. 29-1 at 213).

19

Although Waldrep initially implied that he had not fully discussed the plea

20

agreement with defense counsel, he then averred that he had discussed the agreement

21

with his counsel:

22
23
24
25
26
27

THE COURT: Do the initials and signatures mean that you’ve gone over
the plea agreement fully with Mr. Kimble?
WALDREP: No, we haven’t fully gone over the—
MR. KIMBLE: Hold on.
(Whispered conversation)
THE DEFENDANT: Yes, we did.
THE COURT: So you went over the plea agreement fully?
THE DEFENDANT: Yes.
THE COURT: And is that why you put your initials on each paragraph?

28

-10-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 11 of 51

1
2
3
4

THE DEFENDANT: Yes.
THE COURT: Does that mean that you understand everything in the plea
agreement?
THE DEFENDANT: Yes.
(ECF No. 29-1 at 214-15).

5

The Commissioner explained the charges and sentencing ranges, and Waldrep

6

confirmed that he understood the charges to which he was pleading and the applicable

7

sentencing ranges, including that he would receive a sentence of between 17 to 24 years’

8

imprisonment pursuant to his conviction for molestation of a child and a term of lifetime

9

probation pursuant to both convictions for attempted molestation of a child. (ECF No. 29-

10

1 at 215-16). The Commissioner also explained that by pleading guilty Waldrep would be

11

giving up his constitutional rights to be presumed innocent, to have the State prove the

12

charges beyond a reasonable doubt, to confront and cross-examine witnesses, to

13

subpoena witnesses, to present evidence in his own defense, to testify or not testify, to a

14

jury determination of aggravating circumstances, and his right to an appeal. (ECF No. 29-

15

1 at 211-12). Waldrep said he understood the rights he was waiving and that he was

16

choosing to relinquish those rights by pleading guilty. (ECF No. 29-1 at 219). He also

17

confirmed that nobody had forced or threatened him to plead guilty. (Id.). Waldrep

18

denied that anyone had made him any promises in order to induce him to plead guilty.

19

(ECF No. 29-1 at 219-20). Waldrep agreed that the terms of the plea agreement stated the

20

“full agreement” between the parties, that he did not have any questions regarding the

21

agreement, and that nothing had “been left out of the agreement that [he thought] should

22

have been written down.” (ECF No. 29-1 at 218). Waldrep averred he understood the

23

only way he could “get out of the plea agreement [was] to show the [state court] [it was]

24

necessary to correct a manifest injustice[.]” (ECF No. 29-1 at 219).

25

Defense counsel provided the factual bases for Waldrep’s pleas, including that he

26

had “touched the . . . vagina and buttocks of’ his stepdaughter; “attempted to engage in

27

an act of sexual contact against the victim ... by attempting to touch the vaginal area or

28

breasts of the child;” and “knowingly or intentionally attempted to engage in an act of

- 11 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 12 of 51

1

sexual contact against the victim ... by again attempting to touch the vaginal area or

2

breasts of the child.” (ECF No. 29-1 at 220-21).

3

The Commissioner asked, “Sir, is everything your attorney just said true?” and

4

Waldrep replied “Yes.” (ECF No. 29-1 at 221). When asked if he had any additions or

5

corrections regarding the factual basis for the guilty pleas, the prosecutor noted the

6

victim’s date of birth and the fact that the offenses had occurred at separate and distinct

7

times on November 30, 2013. {Id.). The prosecutor further explained that the charges

8

required Waldrep to admit to attempting to touch the vaginal area of the victim, rather

9

than the “vaginal area or breasts” of the victim. (Id.). The Commissioner then asked:

10

“With that correction, Mr. Waldrep, is everything both Counsel said correct?” and

11

Waldrep replied “Yes.” (ECF No. 29-1 at 221-22). The Commissioner found that

12

Waldrep’s plea was “knowingly, intelligently, and voluntarily” made, and that there was

13

a factual basis for the plea. (Id ).

14

Waldrep was sentenced on April 11, 2016, at the conclusion of a sentencing

15

hearing. Prior to the hearing defense counsel filed letters in support of Waldrep for the

16

court’s consideration of mitigation at sentencing. (ECF No. 29-2 at 4-13). Counsel also

17

submitted certificates establishing Waldrep had completed several Bible study classes

18

while incarcerated. (ECF No. 29-2 at 14-33).

19
20
21

At the sentencing hearing a victim’s advocate read a statement on behalf of the
victim. (ECF No. 29-3 at 15-16). The statement included the following:

24.

People who do bad things deserve to be punished for as long as possible ...
especially if a child is harmed ... I feel that this would give me and my
family closure. We all feel betrayed. I trusted him with my life ... I have
trust issues, depression, and I have to take pills to help me with my
emotions.... This is a scar that will last forever.

25

(ECF No. 29-3 at 16-17). The victim’s mother spoke at the hearing, stating: “I want her

26

to be protected and not have to ever fear that this person will ever come back into her

27

life.” (ECF No. 29-3 at 18).

22
23

28

-12-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 13 of 51

1

The prosecutor asked for the maximum 24-year prison term, arguing that no child

2

should have to ever say what the victim had been forced to say in this case: “He licked

3

my private part like ice cream.” (ECF No. 29-3 at 19-20). Defense counsel argued in

4

favor of the presumptive 17-year sentence based on Waldrep’s lack of a prior criminal

5

record, his family support, and his efforts to better himself through Bible study classes.

6

(ECF No. 29-3 at 20-21). Counsel also noted Waldrep “did take responsibility upon being

7

confronted with these incidents ... It was only [after] he consulted with counsel prior to a

8

police interview that he invoked his right to remain silent.” (ECF No. 29-3 at 22).

9

Waldrep addressed the court, stating that “words could not express” how sorry he

10

was “for all the deep pain and heartache” he had caused his “precious stepdaughter.”

11

(ECF No. 29-3 at 23). He claimed that he “would do anything to take back [his] actions

12

and all of the hurt and stress” he had caused. (ECF No. 29-3 at 24). Waldrep stated:

13

“There were special circumstances leading to this incident that the mitigation was turned

14

into you, Your Honor. These charges represent the opposite of who I am and who I’ve

15

been all my life. I do take responsibility for my sin.” (Id.). He also told the court: “All my

16

life I’ll be broken hearted in the deepest sorrow, repentance, and disgust for putting [the

17

victim] and all my family through this terrible time.” (ECF No. 29-3 at 25). He blamed

18

his actions on “the antler spray and testosterone treatment” he had been taking “for

19

medical reasons for [his] shoulders and chronic fatigue.” (Id.). Waldrep reported that

20

after abusing his stepdaughter he “had the greatest feeling of guilt, shame, confusion,

21

remorse, and shock.” (ECF No. 29-3 at 26). He noted his prior “spotless record” and that

22

he had been a “model citizen and a model inmate.” (ECF No. 29-3 at 28.)

23

Waldrep then stated that he had been denied the services of a mitigation specialist,

24

an investigator, and a paralegal. (ECF No. 29-3 at 29). He referenced a number of other

25

cases involving defendants who received a lighter sentence than the minimum authorized

26

by his plea agreement, including two sex abuse cases, a theft case, and a semi-truck

27

accident resulting in death, and he requested a 10-year sentence. (ECF No. 29-3 at 29-

28

31). After Waldrep was finished defense counsel explained that he had spoken to

-13 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 14 of 51

1

Waldrep about a mitigation specialist, but that “OPDS” (the public defenders’ office)

2

would not authorize one in a non-capital case. (ECF No. 29-3 at 32).

3

Waldrep was sentenced to a term of 17 years’ imprisonment pursuant to his

4

conviction on Count 1, molestation of a child. The court explained that the aggravating

5

factors balanced against the mitigating factors made the presumptive sentence

6

appropriate. (ECF No. 29-3 at 32-33). The court found the aggravating factors to be the

7

seriousness of the crime, the serious impact to the particular victim, and Waldrep’s abuse

8

of a position of trust. (Id.). The court found the mitigating factors to be Waldrep’s lack of

9

a criminal history and the fact that he “took responsibility right away.” (Id.). In

10

accordance with the plea agreement Waldrep was sentenced to two concurrent terms of

11

lifetime probation pursuant to his conviction on the two counts of attempted molestation

12

of a child. (ECF No. 29-3 at 33-34).

13

B.

14

Waldrep filed a timely notice of state post-conviction relief pursuant to Rule 32 of

15

the Arizona Rules of Criminal Procedure. (ECF No. 29-3 at 53-55). He simultaneously

16

filed a Rule 32 petition, checking boxes on a form asserting: he had been denied his

17

rights to be free of self-incrimination and to the effective assistance of counsel; the

18

unconstitutional suppression of evidence by the state; the unconstitutional use of perjured

19

testimony by the state; his guilty plea was unlawfully induced; and the existence of newly

20

discovered evidence warranting the vacatur of his conviction or sentence. (ECF No. 29-3

21

at 61). Waldrep stated he learned about the newly discovered evidence on April 20, 2016,

22

i.e., he “learned specific constitutional rights,” and he also noted: “involuntary

23

confession, unlawful interrogation;” ineffective assistance of counsel; and “Miranda

24

rights violated.” (Id.). He also alleged that the convicting court did not have jurisdiction

25

and that his sentence was imposed “other than in accordance with the sentencing

26

procedures established by rule and statute.” (Id.). Waldrep further asserted he had been

27

denied his rights to due process and his rights pursuant to the “4th, 5th, 6th, [and] 14th

28

Constitutional Amendment^],” and “Title III, Procedural Error, Cumulative Effect

State post-conviction proceedings

- 14-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 15 of 51

1

Jurisdiction Clause violation, rights depravation (sic) by courts, prosecution and defense

2

counsel.” (Id.). Waldrep did not present any argument or facts to support his claims for

3

relief, stating that the facts would be “reviewed, compiled and organized upon

4

assignement (sic) of new Rule 32 counsel..(ECF No. 29-3 at 62).

5

The state trial court appointed post-conviction counsel. (ECF No. 29-3 at 65-66).

6

Counsel filed a notice averring he was “unable to discern any colorable claim upon which

7

to base a Petition for Post-Conviction Relief.” (ECF No. 29-4 at 7). The trial court

8

allowed Waldrep until October 3, 2016, to file a pro per petition for post-conviction

9

relief. (ECF No. 29-4 at 13).

10

Waldrep filed another copy of his “check box” Rule 32 petition on August 9,

11

2016. (ECF No. 29-4 at 22). The State filed a response to the petition. (ECF No. 29-4

12

at 29). Waldrep then filed a “Motion to Withdraw” “the partial Post-Conviction Relief

13

Petition” filed August 9, 2016. (ECF No. 29-4 at 37). On September 12, 2016, Waldrep

14

filed a “Reply to State’s Response In Petition for Post-Conviction Relief,” which did not

15

discuss the substance of his claims or the State’s response. (ECF No. 29-4 at 46-47).

16

Waldrep filed a “Petition for Post-Conviction Relief-Revised,” on or about October 5,

17

2016, containing argument addressing his substantive claims for relief. (ECF No. 29-4

18

at 70-95). The petition included extensive exhibits, (ECF No. 29-4 at 96-162), including

19

an “ exhibit” titled “Disproportionate Sentencing” and an exhibit titled “Uninvestigated

20

Mitigation Factors and Special Circumstances.” (ECF No. 29-4 at 149, 150-55). “Exh. D”

21

to the petition delineated Waldrep’s claims of “ineffective assistance of counsel,” listing

22

34 separate claims of error. (ECF No. 29-4 at 160-61).

23

The state trial court denied relief in Waldrep’s Rule 32 action on October 25,

24

2016. (ECF No. 29-5 at 9-14). Citing the state’s procedural rules, the trial court

25

“addressed the claims raised in the revised petition.” (ECF No. 29-5 at 9). With regard to

26

Waldrep’s ineffective assistance of counsel claims, the trial court concluded:

27
28

The Defendant has not shown that but for the ineffectiveness of both
trial counsel the Defendant would have received a more favorable result
than what occurred in this case. ... The Defendant has not shown a link
- 15 -

Case 2:17-CV-04609-DWL Document 53 Filed 12/20/19 Page 16 of 51

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

between any arguments not made at the settlement conferences to the
ultimate outcome of this case ... the complaints the Defendant has about
statements made by Judges Granville and Padilla at the settlement
conferences were not error; those statements were not coercive....
The Defendant also alleges that he did not have the time to
sufficiently review the plea agreement before the change of plea
proceeding, however, when Commissioner Ireland asked the Defendant if
he read over the plea agreement and understood everything in the plea
agreement, the Defendant answered “yes.”
“Disagreements in trial strategy will not support a claim of
ineffective assistance so long as the challenged conduct has some reasoned
basis.” State v. Meeker, 143 Ariz. 256, 260 [] 1984. Both defense attorneys
made strategic determinations about not using investigators or experts on
sex offenders, not obtaining additional polygraph testing, not being present
at the risk assessment, and not filing motions to challenge the indictment or
the confrontation calls. The Defendant has not shown how these
determinations would have changed the outcome of this case.
“Temporary intoxication resulting from the voluntary ingestion,
consumption, inhalation or injection of psychoactive substances or the
abuse of prescribed medications does not constitute insanity and is not a
defense for any criminal act or requisite state of mind.” A.R.S. §13-503.
The mental state required for child molestation is intentionally or
knowingly. A.R.S. §13-1410(A). An attempted crime also requires intent.
A.R.S. §13-1001(A). The Defendant argues that the medications caused
him to not be able to think clearly. This falls squarely within the statute
noted above. Arizona law does not allow voluntary intoxication as a
defense in this situation.
The Court finds that the Defendant has not shown that Ms.
Workman’s or Mr. Kimble’s performance in this case was unreasonable.
Additionally, the Defendant has not shown any reasonable probability that
the outcome of this case would have been different based on Ms.
Workman’s or Mr. Kimble’s performance. The Defendant has not
established a colorable claim for ineffective assistance of counsel...
(ECF No. 29-5 at 12-13).

24

On November 20, 2016, Waldrep filed a petition for review, which included 28

25

separate claims of ineffective assistance of counsel. (ECF No. 29-5 at 38-40). Waldrep

26

also asserted: he was denied his right to self-representation; violation of his Miranda

27

rights and, accordingly, his right against self-incrimination; a defective indictment;

28

“judicial error;” “prosecutorial misconduct;.59 ii withheld evidence;” that he was denied his

- 16-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 17 of 51

1

right to present the defense of involuntary intoxication and diminished capacity; violation

2

of his right to be free of double jeopardy; that he was wrongfully denied bail; sentencing

3

error; and that his guilty plea was coerced and entered ‘unknowingly, unintelligently,

4

unvoluntarily [sic].” (ECF No. 29-5 at 28-32). Waldrep simultaneously filed an appendix

5

containing notes from police reports regarding the forensic interview of the victim and

6

the confrontation call between Waldrep and the victim’s mother, partial notes from a

7

medical exam of the victim, and statements from various family members in support of

8

his claims. (ECF No. 29-5 at 55-134).

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

The Arizona Court of Appeals granted review and denied relief in a decision filed
November 29, 2017:
On review, Waldrep again raises constitutional and federal statutory
arguments in regard to the confrontation call, claims his indictment was
invalid, asserts violations of his right to due process and right against
“[d]ouble [pjunishments,” argues he received ineffective assistance of
counsel, claims his plea was involuntary, and maintains his sentence was
illegal. Most of these complaints are about non-jurisdictional matters and
“the entry of a plea waives all non-jurisdictional defects. ” []. Therefore
most of Waldrep’s claims are barred, and we do not address them. See
Ariz. R. Crim. P. 32.2(a)(3).
This principle also bars claims of ineffective assistance of counsel,
except those that relate to the validity of the plea. []. Waldrep’s claims do
not bear on the validity of his plea, except his claim that the plea was
coerced. Even so, at his change-of-plea hearing, Waldrep stated that he had
gone “over the plea agreement fully” with his attorney and “underst[oo]d
everything in the plea agreement.” The trial court explained the rights he
would be giving up and discussed the possible penalties for each count.
Waldrep stated that no one had threatened him or promised him anything in
regard to the plea. To state a colorable claim Waldrep needed to do more
than simply contradict the record....
As to Waldrep’s claims of sentencing error, much of his argument
relies on federal laws relating to presentence reports. Those statutes do not
apply to Arizona sentencings. He likewise cites federal law as to his claim
that his crimes should be “treated as a [s] ingle [o]ffense” in sentencing.
Waldrep does cite the similar Arizona law, A.R.S. § 13-116, but it does not
apply to sentencings for crimes, like Waldrep’s, which are dangerous
crimes against children under A.R.S. § 13-705....

28

- 17-

Case 2:17-CV-04609-DWL Document 53 Filed 12/20/19 Page 18 of 51

1

State v. Waldrep, 2017 WL 5899910, at *1-2 (Ariz. Ct. App. 2017) (emphasis added and

2

internal citations omitted).

3

C.

4

Waldrep asserts 65 claims for relief in his habeas petition. Respondents have

5
6
7
8
9
10
11
12

13
14
15
16
17
18
19
20
21
22
23
24
25
26

Federal Habeas Claims

accurately represented Waldrep’s claims as follows:
Ground 1 contends that Waldrep’s Fourth, Fifth, Sixth, and
Fourteenth Amendment rights were violated when the police used a
confrontation call to secure evidence, arrest him, indict him, and induce
him to plead guilty. (Docs. 1 at 6; 8 at 15.)
Ground 2(a) claims that Waldrep received ineffective assistance of
counsel because his counsel failed to file a motion to suppress the
confrontation call, which he alleges amounted to an involuntary confession
to police because during the confrontation call, his attorney was not
present, and the Miranda warnings were not given. (Docs. 1 at 7, 9; 8 at
20.)
Ground 2(b) implicitly claims that the confrontation call amounted
to an involuntary confession to police. (Docs. 1 at 7, 9; 8 at 20.)
Ground 3 claims that Waldrep was deprived of his Sixth
Amendment right to represent himself, despite making this request “on the
record” to the court on March 3, 2016. (Docs. 1 at 11; 8 at 16.)
Ground 4 alleges that Waldrep was deprived of due process because
the superior court dismissed his PCR petition before Waldrep had a chance
to review transcripts pertinent to his claim that he had been denied the right
to self-representation. (Docs. 1 at 12, 48; 8 at 10, 29.)6
Ground 5 alleges that Waldrep’s Fifth Amendment right “not to
bear witness against self’ was violated on December 3, 2013 (the date of
the confrontation call). (Docs. 1 at 15; 8 at 16.)
Ground 6 alleges that Waldrep’s due process and Fourth
Amendment rights were violated on December 3, 2013 (the date of the
confrontation call). (Docs. 1 at 15; 8 at 16.)
Ground 7 alleges that Waldrep’s equal protection rights under the
Fourteenth Amendment were violated on December 3, 2013 (the date of the
confrontation call). (Docs. 1 at 15; 8 at 16.)
Ground 8 alleges that the government violated § 1983 by recording
his confrontation call, by presenting an “Illegal Communication
Interception” to the grand jury and the court. (Doc. 1 at 15.)

27
28

6 This claim fails because alleged errors in state post-conviction proceedings are not
cognizable in a § 2254 action. Gerlaugh v. Stewart, 129 F.3d 1027, 1045 (9th Cir. 1997);
Villafuerte v. Stewart, 111 F.3d 616, 632 n.7 (9th Cir. 1997).
-18-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 19 of 51

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

Ground 9 alleges that on December 3, 2013 (the date of the
confrontation call), the government “perpetrated [a] ‘Conspiracy Against
Rights.’” (Id.)
Ground 10 alleges that on December 3, 2013 (the date of the
confrontation call), the government caused Waldrep to “suffer a
“Deprivation of Constitutional Rights.” (Id.)
Ground 11 alleges that Waldrep’s Sixth Amendment right to
counsel was violated on December 3, 2013 (the date of the confrontation
call). (Docs. 1 at 15; 8 at 16.)
Ground 12(a) alleges that his Waldrep’s due process rights were
violated because the state court lost jurisdiction before his arrest. (Doc. 1 at
16.)
Ground 12(b) alleges that Waldrep he was held on an indictment
that was allegedly void because he had not been given the Miranda
warnings before the confrontation call. (Id; Doc. 8 at 15.)
Ground 13 claims a “judicial abuse of discretion” due to allegedly
coercive behavior of a judge during his first settlement conference who told
him that he had “no defense” and that he would be better off if he took the
plea a violation of Arizona Rule of Criminal Procedure 17.4 and Federal
Rule of Criminal Procedure 11. (Docs. 1 at 16; 8 at 19, 29.)
Ground 14 claims that Waldrep’s due process rights were violated
by the prosecutor’s statements during plea negotiations. (Docs. 1 at 16-17;
8 at 11.) To the extent Ground 14 also includes an allegation of judicial
misconduct, it will be addressed in Ground 13.
Ground 15 alleges that Waldrep’s Fourteenth Amendment rights to
equal protection and due process were violated by the court, the prosecutor,
and defense counsel during the settlement conference. (Doc. 1 at 17-21.) To
support this claim, Waldrep argues that if he had been permitted to
represent himself, he could have hired an investigator and expert witnesses
prior to the settlement conference. (Id.; Doc. 8 at 11, 16, 19.)
Ground 16 alleges that the Arizona Court of Appeals abused its
discretion by failing to grant relief from the denial of Waldrep’s PCR
petition. (Docs. 1 at 22; 8 at 26-27.)7
Ground 17 asserts that Waldrep’s due process rights were violated
by the trial court based on the denial of a motion to change counsel. (Docs.
1 at 22; 8 at 16, 27-29.)

25
26
27
28

7 This claim also fails because alleged errors in state post-conviction proceedings are not
cognizable in a § 2254 action. Gerlaugh v. Stewart, 129 F.3d 1027, 1045 (9th Cir. 1997);
Villafuerte v. Stewart, 111 F.3d 616, 632 n.7 (9th Cir. 1997).

-19-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 20 of 51

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Ground 18 alleges that the prosecutor engaged in misconduct by
“overzealous, vindictive prosecution, withheld exculpatory evidence,
multiplicious [sic], overcharging, misrepresentation to grand jury, court,
false statements, presented void indictment to the court against petitioner,
violated Title III § 1983 Act, ‘due process violations.’” (Docs. 1 at 22; 8 at
11,16,18.)
Ground 19 alleges “extreme” ineffective assistance of counsel
(“IAC”), prejudice, malpractice, misrepresentation, and coercion, which
violated Waldrep’s rights protected by the Sixth and Fourteenth
Amendment. (Doc. 1 at 24.)
Ground 20 alleges IAC [ineffective assistance of counsel] because
Waldrep was “denied [an] investigator for preparation of defense.” (Docs. 1
at 24; 8 at 21.)
Ground 21 alleges IAC because Waldrep was denied a record
transcript to “Expert S.O. Witnesses.” (Docs. 1 at 24; 8 at 21.)
Ground 22 alleges IAC because Waldrep was denied the statements
of three treating doctors. (Docs. 1 at 24; 8 at 21.)
Ground 23 alleges IAC because Waldrep was denied a transcript of
the confrontation call and the grand jury transcript. (Docs. 1 at 24; 8 at 21.)
Ground 24 alleges IAC because counsel was not present during
“critical stages.” (Docs. 1 at 24; 8 at 21.)
Ground 25 alleges IAC because Waldrep was denied review or
examination of discovery for defects in the indictment, search warrant,
confrontation call, electronic interception, police report, victim statements,
or interrogation. (Docs. 1 at 24; 8 at 20.)
Ground 26 alleges IAC because Waldrep was denied “defense
strategy” and investigation. (Docs. 1 at 24; 8 at 21.)
Ground 27 alleges IAC because defense counsel failed to present or
discuss affirmative defenses. (Docs. 1 at 24; 8 at 21.)
Ground 28 alleges IAC for failing to challenge “unconstitutional
statutes” or file a motion to suppress. (Docs. 1 at 25; 8 at 20, 22 (“failed to
suppress, challenge ‘fruit of poisonous tree evidence]’”).
Ground 29 alleges IAC for failing to prepare a mitigation package.
(Doc. 1 at 25.)
Ground 30 alleges IAC for denying Waldrep the guaranteed right to
legal representation. (Docs. 1 at 25; 8 at 22.)
Ground 31(a) alleges IAC for failing to challenge rights “violated
during settlement] conferences.” (Docs. 1 at 25.)
Ground 31(b) alleges that counsel also “failed to protect 14th
[A]mend[ment] [rights] in plea proceedings critical stage.” (Doc. 8 at 22.)
Ground 32 alleges IAC for denying Waldrep’s “multi[ple] requests”
to review and discuss plea prior to his “inducement” to sign the “unread”
guilty plea. (Docs. 1 at 25; 8 at 22.)
-20-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 21 of 51

1
2
3
4
5

6
7

8
9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24
25

26
27

28

Ground 33 alleges IAC because he was denied “to have warnings,
side effects from [various prescribed drugs].” (Docs. 1 at 25; 8 at 23.)
Ground 34 alleges IAC because he was denied the equal protections
and privileges afforded to other defendants in similar situations for
“defenses, mitigation, greatly reduced sentencing, and plea offers for other
defendants.” (Docs. 1 at 25; 8 at 23.)
Ground 35 alleges IAC because he was denied case citations of
“recent, relevant cases showing [Waldrep’s] disproportionate treatment,
punishment, and sentencing.” (Doc. 1 at 25.)
Ground 36 alleges IAC because he was denied information on
involuntary intoxication, diminished capacity, and lack of intent. (Id.)
Ground 37 alleges IAC for failing to challenge the alleged
“presumption of guilt” or the prosecutor’s statements that voluntary
intoxication is not a defense. (Docs. 1 at 25; 8 at 23.)
Ground 38 alleges IAC because he was denied investigation of
“mental impairment from prescribed medication.” (Docs. 1 at 25; 8 at 24.)
Ground 39 alleges IAC for failing to challenge or review the
presentence report with Waldrep. (Doc. 1 at 26.) In his memorandum, he
adds the allegation that “counsel [was] not present at critical stages of PSR
interviews with probation.” (Doc. 8 at 24.)
Ground 40 alleges IAC for failing to inform Waldrep of the
constitutional right to effective counsel or “waivers of constitutional
rights.” (Docs. 1 at 26; 8 at 24.)
Ground 41 alleges IAC for failing to protect Waldrep’s.Fourteenth
Amendment rights during a “critical stage” of plea negotiations. (Doc. 1 at
26.) In Waldrep’s memorandum, he adds that his “conviction [was] based
on involuntary confession obtained through police coercion violates due
process clause.” (Doc. 8 at 24.)
Ground 42 alleges IAC for failing to inform Waldrep of any
minimum sentence prior to his signing of the allegedly unread plea
agreement. (Docs. 1 at 26; 8 at 24.)
Ground 43 alleges IAC because he was denied “knowledge and
opportunity to request a mitigation hearing to present expert testimony.”
(Docs. 1 at 26; 8 at 25.)
Ground 44 alleges IAC for failing to challenge the state court’s
jurisdiction due to a “fatally flawed indictment” that was allegedly
“multiplicious” [sic] and had “due process violations.” (Docs. 1 at 26; 8 at
16-18, 32.)
Ground 45 alleges IAC for failing to disclose the State’s
“aggravating factors” to Waldrep and failing to challenge them with
evidence in support of mitigation. (Doc. 1 at 26.) In Waldrep’s
memorandum, he adds that counsel “failed to challenge state’s aggravating

-21 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 22 of 51

1
2

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

factors, offer mitigation materials” and states that “Apprendi held only jury
can enhance sentence above stat. max.” (Doc. 8 at 25.)
Ground 46 alleges IAC for allowing Waldrep to be induced by
misrepresentations to sign the guilty plea. (Doc. 1 at 26.) His memorandum
adds that counsel used “misrepresentation to induce signing of unread
guilty plea.” (Doc. 8 at 25.)
Ground 47 alleges IAC for purposely keeping Waldrep “unknowing
of . . . rights, uninformed of discovery, charges, possible challenges, and
defense strategies.” (Docs. 1 at 26; 8 at 25.)
Ground 48 alleges IAC because he was denied the right to a
presentencing conference and presentencing hearing to challenge alleged
errors and inaccuracies. (Doc. 1 at 26.)
Ground 49 alleges IAC because he was denied his right to review
and discuss the presentence report prior to sentencing. (Id.)
Ground 50 alleges IAC because Waldrep was denied the
opportunity to present his own presentence report to the court. (Id.)
Ground 51 alleges IAC for failing to provide Waldrep with
representation adhering to Arizona Rules of Court (Rule 42 ER 1.2, 2003
ER 1.3, 1.4, 1.6). (Doc. 1 at 27.)
Ground 52 alleges IAC for failing to pursue a matter on behalf of
Waldrep, to take measures to vindicate him, or to discuss his rights as a
client. (Id. at 24-27; Doc. 8 at 21.)
Ground 53 alleges that Waldrep’s Fourteenth Amendment equal
protection rights were violated because he was denied bail and pre-trial
release. (Docs. 1 at 27; 8 at 30.)
Ground 54 alleges that Waldrep’s right to be free of cruel and
unusual punishment under the Eighth Amendment was violated because he
was denied bail and therefore lost income during the 28 months of
proceedings, which caused him to become indigent and lose his private
attorney. (Docs. 1 at 27-28; 8 at 30.)9
• • • [A] federal court does not sit in appellate review of a state court’s exercise of
judicial discretion in its grant or denial of bail. Young v. Hubbard, 673 F.2d 132,
134 (5th Cir. 1982). . . . Only if no rational basis for denying bail appears in the
record will there be a violation of a state prisoner’s constitutional rights Id. at
595,601.
Collins v. California Dep’t of Corr., 2015 WL 8477768, at *5 (N.D. Cal. Dec. 10, 2015).
Accordingly, this claim is not cognizable because Arizona law prohibited bail based on the
nature of the charged offenses. See Kelly v. Springett, 527 F.2d 1090 (9th Cir. 1975). To the
extent this claim might be cognizable, it was waived by Waldrep’s guilty plea. See Wilkins v.
Shirleson, 2011 WL 4530113, at *15 (D. Ariz. Sept. 7, 2011), report and recommendation
adopted, 2011 WL 4566438 (D. Ariz. Sept. 30, 2011); Johnson v. Mendoza-Powers, 2008 WL
5245991, at *14 (C.D. Cal. Dec. 12, 2008) (“Petitioner’s claim that his bail was excessive—
assuming that it states a constitutional violation at all—is clearly barred under TollettC).

-22-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 23 of 51

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

Ground 55 alleges that Waldrep’s guilty plea was not knowing,
intelligent, or voluntary due to coercion and misrepresentations by the
court, prosecutor, and defense counsel. (Docs. 1 at 28; 8 at 11, 20, 30.)
Ground 56 alleges “prejudice” and “abuse of discretion” because
the transcripts from Waldrep’s sentencing and second settlement
conferences were purportedly altered. (Docs. 1 at 28; 8 at 30.)
Ground 57 alleges that his two lifetime probation sentences violate
a “statute against double punishments.” (Docs. 1 at 18; 8 at 6, 16-18, 30-31,
32.)
Ground 58 alleges that defense counsel (Kimble) withheld
exculpatory evidence from Waldrep in order to induce a guilty plea. (Docs.
1 at 29; 8 at 30-31.)
Ground 59 alleges that defense counsel presented “knowingly false
aggravating statements” on the record to cause Waldrep to receive
disproportionate, prejudicial sentencing. (Id.) (Docs. 1 at 29; 8 at 31.)
Ground 60 alleges that Waldrep “suffered extreme prejudice”
because defense counsel was not present during his polygraph interview
with Dr. Gray or during his presentence interview with a probation officer.
(Doc. 1 at 30.)
Ground 61 alleges that the court wrongfully deleted Waldrep’s
“PSR Supplement” attached to the presentence report. (Id.; Doc. 8 at 3234.)
Ground 62 alleges that Waldrep’s two lifetime probation sentences
violate an Arizona statute. (Doc. 1 at 30.)
Ground 63 alleges that the court failed to ask Waldrep if he had
read or discussed the presentence report. (Id.)
Ground 64 alleges that Arizona violated Waldrep’s due process
rights because he was charged under unconstitutional statutes that caused
the court to lose jurisdiction over the case. (Id. at 30-31.) He further claims
that he would not have signed the plea agreement if counsel had notified
him that the charges were unconstitutional. (Id. at 33; Doc. 8 at 6, 18, 3536.)
Ground 65 alleges “newly discovered evidence” based on
information Waldrep allegedly discovered in his file about mitigation and
medical side effects that were purportedly potentially exculpatory, which he
alleges had been wrongfully withheld by defense counsel for two years.
(Docs. 1 at 33; 8 at 37.)
(ECF No. 29 at 37-45).

27
28

-23 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 24 of 51

1

Respondents contend Waldrep’s claims were waived by his guilty plea, are not

2

cognizable in a § 2254 habeas proceeding, and are procedurally defaulted. (ECF No. 29

3

at 1). Respondents further maintain the claims which are properly presented to the Court

4

are without merit. (Id).

5

Waldrep’s Reply is 82 pages in length, including 38 pages of exhibits. (ECF

6

No. 32). In his Reply Waldrep reiterates the merits of his claims and presents a rebuttal to

7

Respondents’ “’Memorandum of Points and Authorities.’” (ECF No. 32 at 1-43, 4-18).

8

Waldrep also alleges the State has engaged in a “cover-up” and that “The transcript has

9

been altered, deletions made, as my last statement on Record was Quote ‘I guess This

10

System Is Run by SATAN!”’ (ECF No. 32 at 9). Waldrep further avers that for “the Last

11

five years I have consecrated myself to the Lord Jesus and to serve His ministry,” and

12

that he has “had NO Sexual sin or conduct, I have NOT Masterbated (sic), ejaculated, or

13

performed any sexual activity in the Last Five Years!.” (Id.). Waldrep also asserts his

14

Fourth Amendment and Miranda rights were violated during the investigation of his

15

crimes; that his pre-plea proceedings violated his constitutional rights; and that his guilty

16

plea was unknowing and coerced. (ECF No. 32 at 3-6).

17

II.

Analysis

18

A.

Exhaustion and Procedural Default

19

Absent specific circumstances the Court may only grant federal habeas relief on a

20

claim which has been properly exhausted in the state courts. See O’Sullivan v. Boerckel,

21

526 U.S. 838, 842 (1999); Coleman v. Thompson, 501 U.S. 722, 729-30 (1991). To

22

properly exhaust a federal habeas claim the petitioner must afford the state courts the

23

opportunity to rule upon the merits of the claim by “fairly presenting” it to the state’s

24

“highest” court in a procedurally correct manner. E.g., Castille v. Peoples, 489 U.S. 346,

25

351 (1989); Rose v. Palmateer, 395 F.3d 1108, 1110 (9th Cir. 2005). In non-capital cases

26

arising in Arizona, the “highest court” test is satisfied if the habeas petitioner presented

27

his claim to the Arizona Court of Appeals. See Swoopes v. Sublett, 196 F.3d 1008, 1010

28

(9th Cir. 1999); Date v. Schriro, 619 F. Supp. 2d 736, 762-63 (D. Ariz. 2008).

-24-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 25 of 51

1

A petitioner has not exhausted a federal habeas claim if he still has the right to

2

raise the claim “by any available procedure” in the state courts. 28 U.S.C. § 2254(c).

3

Accordingly, the exhaustion requirement is satisfied if the petitioner is procedurally

4

barred from pursuing a previously un-presented claim in the state’s “highest” court. See

5

Woodford v. Ngo, 548 U.S. 81, 92-93 (2006).

6

[The federal courts] recognize two types of procedural bars: express
and implied. An express procedural bar occurs when the petitioner has
presented his claim to the state courts and the state courts have relied on a
state procedural rule to deny or dismiss the claim. An implied procedural
bar, on the other hand, occurs when the petitioner has failed to fairly
present his claims to the highest state court and would now be barred by a
state procedural rule from doing so.

7

8
9
10
11

Robinson v. Schriro, 595 F.3d 1086, 1100 (9th Cir. 2010).

12

Because the Arizona Rules of Criminal Procedure regarding timeliness, waiver,

13

and the preclusion of claims bar Waldrep from returning to the state courts to exhaust any

14

unexhausted federal habeas claim, he has exhausted but procedurally defaulted any claim

15

not presented to the Arizona Court of Appeals in his Rule 32 action. See Insyxiengmay v.

16

Morgan, 403 F.3d 657, 665 (9th Cir. 2005); Beaty v. Stewart, 303 F.3d 975, 987 (9th Cir.

17

2002).

18

Procedural default also occurs when a petitioner did present a claim to the Arizona

19

Court of Appeals, but the appellate court did not address the merits of the claim because

20

it found the claim precluded by a state procedural rule. See, e.g, Atwood v. Ryan, 870

21

F.3d 1033, 1059 (9th Cir. 2017).

22
23
24
25
26
27
28

The doctrine of procedural default provides that a federal habeas court may
not review constitutional claims when a state court has declined to consider
their merits on the basis of an adequate and independent state procedural
rule. A state procedural rule is adequate if it is regularly or consistently
applied by the state courts and it is independent if it does not depend on a
federal constitutional ruling. Where a state procedural rule is both adequate
and independent, it will bar consideration of the merits of claims on habeas
review unless the petitioner demonstrates cause for the default and
prejudice resulting therefrom or that a failure to consider the claims will
result in a fundamental miscarriage of justice.

-25 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 26 of 51

1

McNeill v. Polk, 476 F.3d 206, 211 (4th Cir. 2007) (internal citations and quotations

2

omitted).

3

The Arizona Court of Appeals concluded that all of Waldrep’s claims of pre-plea

4

non-jurisdictional error were waived by his entry of a knowing and voluntary guilty plea,

5

pursuant to Rule 32.2(a)(3) of the Arizona Rules of Criminal Procedure. This rule has

6

been found to be an independent and adequate state ground barring federal habeas

7

review. See Stewart v. Smith, 536 U.S. 856, 861 (2002). The Ninth Circuit Court of

8

Appeals has concluded this rule is “firmly established and consistently followed.”

9

Murray v. Schriro, 745 F.3d 984, 1016 (9th Cir. 2014). Accordingly, Waldrep has

10

procedurally defaulted his federal habeas claims of pre-plea non-jurisdictional error,

11

other than claims relating to the voluntary and knowing nature of his plea.

12

If a prisoner has procedurally defaulted a federal habeas claim in the state courts

13

he is not entitled to a review of the merits of the claim absent a showing of cause and

14

prejudice. E.g., Ellis v. Armenakis, 222 F.3d 627, 632 (9th Cir. 2000). “Cause” is a

15

legitimate excuse for the petitioner’s procedural default of the claim, i.e., an objective

16

factor outside of the defense’s control, and “prejudice” is actual harm resulting from the

17

alleged constitutional violation. Cooper v. Neven, 641 F.3d 322, 327 (9th Cir. 2011). It is

18

the petitioner’s burden to establish both cause and prejudice with regard to their

19

procedural default of a federal habeas claim in the state courts. Id.-, Correll v. Stewart,

20

137 F.3d 1404, 1415 (9th Cir. 1998). The Court may also consider the merits of a

21

procedurally defaulted claim if the failure to consider the claim will result in a

22

fundamental miscarriage of justice. Coleman, 501 U.S. at 750; Atwood, 870 F.3d at 1059;

23

Cooper, 641 F.3d at 327. A petitioner satisfies the “fundamental miscarriage of justice”

24

test only by “establish[ing] that under the probative evidence he has a colorable claim of

25

factual innocence.” Sawyer v. Whitley, 505 U.S. 333. 339 (1992) (internal quotation

26

marks omitted).

27

Furthermore, although relief may not be granted on an unexhausted claim absent a

28

showing of cause and prejudice or a fundamental miscarriage of justice, a claim may be

-26-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 27 of 51

1

denied “on the merits, notwithstanding the failure of the applicant to exhaust the remedies

2

available in the courts of the State.” 28 U.S.C. § 2254(b)(2). See also Kirkpatrick v.

3

Chappell, 926 F.3d 1157, 1166 n.2 (9th Cir. 2019); Runningeagle v. Ryan, 686 F.3d 758,

4

769 n.3 (9th Cir. 2012). The Ninth Circuit Court of Appeals has also found that a claim

5

which was defaulted in the state courts pursuant to a state procedural rule may be denied

6

on the merits. See Ayala v. Chappell, 829 F.3d 1081, 1096 (9th Cir. 2016); Wafer v.

7

Hedgpeth, 627 F. App’x 586, 587 (9th Cir. 2015), citing Runningeagle, 686 F.3d at 111

8

n.10; Salvador Montes v. Ryan, 2019 WL 2011065, at *6 (D. Ariz. Apr. 3, 2019), report

9

and recommendation adopted, 2019 WL 2009760 (D. Ariz. May 7, 2019).

10

Respondents contend Waldrep proceduraily defaulted Grounds 16, 56, and 64,

11

because he did not present these claims to the Arizona Court of Appeals in his Rule 32

12

action. Ground 16 alleges that the Arizona Court of Appeals abused its discretion by

13

failing to grant relief from the denial of Waldrep’s Rule 32 petition.10 Ground 56 alleges

14

“prejudice” and “abuse of discretion” because the transcripts from Waldrep’s sentencing

15

and second settlement conference were purportedly altered.11 Ground 64 alleges that

16

Arizona violated Waldrep’s due process rights because he was charged under

17

unconstitutional statutes that caused the court to lose jurisdiction over the case, citing

18

May v. Ryan, No. CV 14-00409 PHX NVW. (ECF No. 1 at 30-31).12 These claims been

19

20
21
22
23
24
25
26
27
28

10 This claim is also not cognizable because federal habeas relief is not available to
redress errors in state post-conviction proceedings. See Ortiz v. Stewart, 149 F.3d 923, 939 (9th
Cir. 1998) (“[FJederal habeas relief is not available to redress alleged procedural errors in state
post-conviction proceedings”); Villafuerte v. Stewart, 111 F.3d 616, 632 n.7 (9th Cir. 1997)
(concluding a claim that the petitioner “was denied due process in his state habeas corpus
proceedings” was not cognizable on federal habeas review).
11 In his Rule 32 appeal Waldrep did not alleged he was denied transcripts, or that any
transcripts he was provided were altered, although he asserted that a transcript of the first
settlement conference was “missing.” (ECF No. 29-5 at 56). Accordingly, the factual basis for
this claim was never presented to the Arizona Court of Appeals.
12 Waldrep could not have presented a claim based on May in his Rule 32 action because
his petition for review was filed November 20, 2016, and Judge Wake’s decision in May was
issued March 28, 2017. In May Judge Wake concluded Arizona’s child molestation law
improperly shifted the burden of proof to the defendant with regard to the element of sexual
intent, and that May’s trial counsel was ineffective for failing to raise this claim. See 245 F.

-27-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 28 of 51

1

procedurally defaulted because Waldrep did not present the claims to the Arizona Court

2

of Appeals and Arizona’s procedural rules regarding timeliness and the waiver of claims

3

preclude him from returning to the Arizona court to exhaust the claims. Additionally,

4

with regard to Waldrep’s properly exhausted claims for relief, the state appellate court

5

found the claims raised by Waldrep in his state Rule 32 proceeding regarding pre-plea

6

non-jurisdictional error, other than his allegation that his guilty plea was not knowing and

7

voluntary, were barred pursuant to a state procedural rule. Accordingly, these claims are

8

procedurally defaulted. Habeas relief may not be granted on a procedurally defaulted

9

claim unless the petitioner establishes cause and prejudice or a fundamental miscarriage

10

of justice will occur absent consideration of the merits of the claim.

11
12

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Supp. 3d 1145 (D. Ariz. 2017), aff’d in part andrev’d in part, 766 F. App’x 505 (9th Cir. 2019).
Judge Wake concluded May’s due process rights were violated by the statute’s burden-shifting
and by the instructions given to the jury. However, on appeal the Ninth Circuit Court of Appeals
concluded May’s counsel’s failure to object to the constitutionality of Arizona’s child
molestation statute was not deficient performance:
... we reach the same conclusion as did the state court with respect to
May’s claim that trial counsel was ineffective for failing to object to the
constitutionality of the child molestation statute. Given the long-standing status of
the law in Arizona that the State is not required to prove sexual intent to
successfully prosecute a defendant for child molestation, see State v. Sanderson,
182 Ariz. 534, 898 P.2d 483, 491 (Ariz. Ct. App. 1995), which provided the
background for the “prevailing professional practice at the time of the trial,”
Bobby v. Van Hook, 558 U.S. 4, 8 (2009) (per curiam), we cannot conclude that
trial counsel’s failure to object to the constitutionality of the statute placing the
burden of proving lack of intent on the defendant fell “below an objective
standard of reasonableness.” Strickland, 466 U.S. at 688. The district court erred
in holding otherwise....
May v. Ryan, 766 F. App’x 505, 506-07 (9th Cir. 2019). After Judge Wake’s decision was issued
the Arizona legislature amended the child molestation statutes. See H.B. 2283, 2018 Ariz. Sess.
Laws, Ch. 266, §§ 1-3 (2d Reg. Sess.) (effective August 3, 2018). The amendment eliminated the
affirmative defense of lack of sexual motivation in former Arizona Revised Statutes § 131407(E). Id. § 2. See State v. Bieganski, 2019 WL 4159822, at *1 (Ariz. Ct. App. 2019).
Because at the time of Waldrep’s conviction the law had not been found unconstitutional,
his conviction under this statute did not violate his constitutional rights. Furthermore, the
touching involved in May—touching a child’s genitals over their swimsuit while playfully
tossing them in a pool—was not clearly done with sexual intent. May, 245 F. Supp. 3d at 116970. In this matter Waldrep admitted licking his stepdaughter’s genitals and there would not
appear to be any other motive for this behavior other than for sexual gratification.

-28-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 29 of 51

1

With regard to the assertion that he procedurally defaulted most of his claims in

2

the state courts, Waldrep asserts: “I Deny All Procedural Bars. Deny All waiver of rights.

3

Deny making Guilty Plea without Coercion, Inducement, Threats, Misrepresentation of

4

Law and Facts.” (ECF No. 32 at 4). Waldrep also alleges, as cause for his procedural

5

default of his claims: “Govt’s concealment or Suppression of Evid. The State’s Failure to

6

provide pet. with Trans, needed for presentation of Fed. Claim. Precluded pet. from

7

properly pursuing his claim in St. Ct.” (ECF No. 32 at 22). Waldrep further contends that

8

he would not have signed the plea agreement if counsel had notified him that the charges

9

were unconstitutional. (ECF No. 1 at 33; ECF No. 8 at 6, 18, 35-36).

10

Waldrep fails to establish cause for his procedural default of his federal habeas

11

claims in the state courts, i.e., that some external force prevented him from presenting his

12

claims to the state courts in a procedurally correct manner. Nor do any of Waldrep’s

13

claims appear meritorious and, therefore, he is unable to establish any prejudice arising

14

from his procedural default of his claims. Furthermore, with regard to the issue of

15

whether a fundamental miscarriage of justice will occur absent consideration of the

16

merits of Waldrep’s defaulted claims, throughout his Petition and his Reply Waldrep

17
18

does not assert his factual innocence of the crimes of conviction. Therefore, no
fundamental miscarriage of justice will occur absent consideration of Waldrep’s

19

defaulted claims.

20

B.

21

Waldrep’s claims that his guilty plea was coerced and unknowing, and his claims

22

of post-plea ineffective assistance of counsel and sentencing error, were not waived by

23

his guilty plea. These claims were denied on the merits by the appellate court. Pursuant to

24

the Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”), the Court may

25

not grant a writ of habeas corpus to a prisoner on a claim adjudicated on the merits in a

26

state court unless the state court’s decision denying the claim was ‘“contrary to, or

27

involved an unreasonable application of, clearly established Federal law, as determined

28

by the Supreme Court of the United States.’” Harrington v. Richter, 562 U.S. 86, 98

Standard of Review Regarding Properly Exhausted Claims

-29-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 30 of 51

1

(2011), quoting 28 U.S.C. § 2254(d). See also Lafler v. Cooper, 566 U.S. 166, 172-73

2

(2012). A state court decision is contrary to federal law if it contradicts the governing law

3

established by United States Supreme Court, or if it reached a different result from that of

4

the Supreme Court on a set of materially indistinguishable facts. See, e.g., Brown v.

5

Payton, 544 U.S. 133, 141 (2005); Yarborough v. Alvarado, 541 U.S. 652, 663 (2004).

6

Furthermore, the state court’s decision constitutes an unreasonable application of clearly

7

established federal law only if it is objectively unreasonable. See, e.g., Renico v. Lett, 559

8

U.S. 766, 773 (2010); Runningeagle, 686 F.3d at 785. An unreasonable application of

9

federal law is different from an incorrect one. See Harrington, 562 U.S. at 101. “’A state

10

court s determination that a claim lacks merit precludes federal habeas relief so long as

11

fairminded jurists could disagree on the correctness of the state court’s decision.’” Woods

12

v. Etherton, 136 S. Ct. 1149, 1151 (2016), quoting Harrington, 562 U.S. at 101. See also

13

Dixon v. Ryan, 932 F.3d 789, 801 (9th Cir. 2019).

14

C.

Waiver of Claims by a Knowing and Voluntary Guilty Plea

15

The state appellate court found many of Waldrep’s claims waived by his entry of a guilty

16

plea, and concluded his guilty plea was knowing and uncoerced and not the result of

17

ineffective assistance of counsel. Waldrep, 2017 WL 5899910, at *2.

18

A habeas claim based on the alleged deprivation of a constitutional right, which

19

violation is alleged to have occurred prior to the entry of the petitioner’s guilty plea, is

20

waived when the petitioner enters a valid guilty plea in the state court. Tollett v.

21

Henderson, 411 U.S. 258, 267 (1973); Lemke v. Ryan, 719 F.3d 1093, 1097 (9th Cir.

22

2013). Because it constitutes a waiver of the defendant’s constitutional rights, a guilty

23

plea must be a voluntary, knowing, and intelligent act, made with sufficient awareness of

24

the relevant circumstances and likely consequences resulting from the defendant’s waiver

25

of their constitutional rights. E.g., Brady v. United States, 397 U.S. 742, 748 (1970).

26

When determining the validity of a guilty plea the Court analyzes “whether the

27

plea represents a voluntary and intelligent choice among the alternative courses of action

28

open to the defendant.” Parke v. Raley, 506 U.S. 20, 29 (1992) (citation and internal

-30-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 31 of 51

1

quotation marks omitted); Brady, 397 U.S. at 749. Additionally, a plea colloquy must

2

satisfy several requirements before the resulting guilty plea may be found voluntary and

3

knowing. See, e.g., Tanner v. McDaniel, 493 F.3d 1135, 1146-47 (9th Cir. 2007). A

4

guilty plea is voluntary and knowing only if the defendant is informed of and waives his

5

privilege against self-incrimination, his right to trial by jury, and his right to confront

6

witnesses. Id., citing Boykin v. Alabama, 395 U.S. 238, 243-44 (1969). A plea is

7

“knowing” if the defendant enters his plea with sufficient awareness of the rights he is

8

waiving and the direct consequences of entering a guilty plea, i.e., the maximum sentence

9

he faces upon conviction. Brady, 397 U.S. at 748, 755; Little v. Crawford, 449 F.3d 1075,

10

1080 (9th Cir. 2006). A plea is voluntary if it is uncoerced, Brady, 397 U.S. at 748, and a

11

“plea is void if it is induced by promises or threats which deprive it of the nature of a

12

voluntary act.” Iaea v. Sunn, 800 F.2d 861, 866 (9th Cir. 1986) (internal quotations

13

omitted). However, “[m]ere advice or strong urging” by defense counsel to plead guilty

14

“based on the strength of the state’s case does not constitute undue coercion.” Iaea, 800

15

F.2d at 867, citing Lunz v. Henderson, 533 F.2d 1322, 1327 (2d Cir. 1976).

16

Waldrep contends his guilty plea was “made void” by: “Threats. Coercion.

17

Inducement by ‘Fraud to sign Guilty Plea,’ Unknowingly of Rights, Law; Unlntelligentlv

18

by LAC, Judicial Misconduct, Prosecutorial Misconduct: Involuntarily made.” (ECF No.

19

32 at 3). Waldrep asserts he “would never signed a plea if not for the Miranda Violations.

20

Unconst. Statutes (Burden Shifting to defense for elements of crime . . .), Judicial

21

Participation in Plea Negotiations . . . Denied Counsel before Interogation (sic)

22

Recording, Denied Self-Representation by Judge Sinclair,” and he asserts the Court

23

should apply de novo review to the state court’s denial of relief. (Id.). With regard to the

24

nature of his guilty plea, Waldrep asserts, inter alia, his disclosures “in Interview with

25

Probation, and 2nd Interview with Probation Supervisor - Coerced. Induced by Unlawful

26

Recording, Invol. Confession used against Petitioner.” (ECF No. 32 at 4-5). “Petitioner

27

would have said nothing if not for Miranda Violation, using Con. Call in criminal

28

proceedings to Elicit Inculpatory Statements. (Denied 6th Amend Rt. to Counsel).” (ECF

-31 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 32 of 51

1

No. 32 at 5). He further alleges he was wrongfully denied bail and wrongfully denied

2

certified transcripts of his settlement conferences. {Id.). Waldrep also asserts his plea was

3

void because the indictment was “Made ‘Void Ab Initio’ by Unconstitutional Statutes in

4

Indict./charging document (May v. Rvan Exh 1011 I.S.C.. and Due Process Violation

5

(Exh 101), ‘Unlawful Interception,’ Recording made by Gilbert Police .. .” (ECF No. 32

6

at 3).

7

The state habeas trial court found Waldrep’s guilty plea was knowing and

8

voluntary and not the result of ineffective assistance of counsel. (ECF No. 29-5 at 12).

9

The Arizona Court of Appeals specifically concluded that Waldrep’s claim that his guilty

10

plea was coerced was without merit, noting the transcript of the plea colloquy belied this

11

claim. Waldrep, 2017 WL 5899910, at *1. The written plea agreement and the transcript

12

of the plea colloquy confirm that Waldrep made a voluntary and knowing choice to plead

13

guilty, i.e., that he was aware of the constitutional rights he was waiving by pleading

14

guilty and the maximum sentence he faced upon conviction. Waldrep’s contemporaneous

15

statements during his plea hearing carry substantial weight in determining if his entry of a

16

guilty plea was knowing and voluntary. See Blackledge v. Allison, 431 U.S. 63, 74

17

(1977). When considering whether a guilty plea was knowing and voluntary a reviewing

18

court should summarily dismiss “conclusory allegations unsupported by specifics” or

19

“contentions that in the face of the record are wholly incredible.” Id. at 74.

20

Furthermore, as previously noted, May had not been decided prior to Waldrep’s

21

criminal proceedings, the confrontation call did not violate Waldrep’s constitutional

22

rights, and Waldrep was not misinformed regarding Arizona law on voluntary

23

intoxication. Accordingly, the undersigned concludes Waldrep’s guilty plea was knowing

24

and voluntary. Furthermore, as explained more thoroughly infra, Waldrep’s guilty plea

25

was not the result of ineffective assistance of counsel.

26
27
28

-32-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 33 of 51

1

D.

2

Ineffective assistance of counsel claims in cases involving a pleading defendant

3

are governed by the doctrine of Strickland v. Washington, 466 U.S. 668 (1984). See Hill

4

v. Lockhart, 474 U.S. 52, 57 (1985). To succeed on a Strickland claim the petitioner must

5

establish that his counsel’s performance fell below an objective standard of

6

reasonableness and “a reasonable probability that, but for counsel’s unprofessional errors,

7

the result of the proceeding would have been different.” Strickland, 466 U.S. at 690. It is

8

the petitioner’s burden to demonstrate both prongs of the Strickland test. Vega v. Ryan,

9

757 F.3d 960, 969 (9th Cir. 2014).

Ineffective Assistance of Counsel Claims in the Plea Context

10

In the context of a case involving a guilty plea, the petitioner satisfies the

11

“deficient performance” prong of the relevant test by establishing that the advice he

12

received from counsel as to the terms and potential benefits of the plea agreement was

13

constitutionally deficient. Hill, 474 U.S. at 56-57. See also Premo v. Moore, 562 U.S.

14

115, 126-27 (2011); Fairbanks v. Ayers, 650 F.3d 1243, 1254-55 (9th Cir. 2011).

22

[A] defendant has the right to make a reasonably informed decision
whether to accept a plea offer. In McMann v. Richardson, the seminal
decision on ineffectiveness of counsel in plea situations, the Court
described the question as not whether “counsel’s advice [was] right or
wrong, but . . . whether that advice was within the range of competence
demanded of attorneys in criminal cases.” McMann, 397 U.S. at 771 [].
Thus, for [the petitioner] to establish a claim of ineffective assistance, he
“must demonstrate gross error on the part of counsel. . . .” Id. at 772, 397
U.S. 759 []. The Third Circuit has interpreted this standard as requiring a
defendant to demonstrate that the advice he received was so incorrect and
so insufficient that it undermined his ability to make an intelligent decision
about whether to accept the plea offer.

23

Turner v. Calderon, 281 F.3d 851, 880 (9th Cir. 2002) (emphasis added and some

24

internal citations and quotations omitted).

15
16
17
18
19
20
21

25

Additionally, in the context of a pleading defendant the prejudice prong of the

26

Strickland test is modified; the habeas petitioner must establish “a reasonable probability

27

that, but for counsel’s errors, he would not have pleaded guilty and would have insisted

28

on going to trial.” Hill, 474 U.S. at 59. The Court must assess the circumstances

-33-

Case 2:17-CV-04609-DWL Document 53 Filed 12/20/19 Page 34 of 51

1

surrounding the case to determine if the petitioner’s allegation that he would have

2

proceeded to trial is plausible. See, e.g., Smith v. Mahoney, 611 F.3d 978, 990 (9th Cir.
2010) (finding no Strickland prejudice where the petitioner had “little to no chance of

4

prevailing on an affirmative defense”); Weaver v. Palmateer, 455 F.3d 958, 970 (9th Cir.

5

2006) (finding no Strickland prejudice where the petitioner’s proposed defense “would

6

have been unlikely to succeed”). And, notably, counsel’s performance is neither deficient

7

nor prejudicial when counsel “fails” to raise a non-meritorious claim. See Juan H.

8

v. Allen, 408 F.3d 1262, 1273 (9th Cir. 2005); Rupe v. Wood, 93 F.3d 1434, 1445 (9th

9

Cir. 1996) (holding counsel’s failure to take a futile action can never be deficient

10

performance); Lowry v. Lewis, 21 F.3d 344, 346 (9th Cir. 1994) (stating that “[a]

11

lawyer’s zeal on behalf of his client does not require him to file a motion which he knows

12

to be meritless on the facts and the law.”).13

13

There is no indication that Waldrep’s counsel’s performance was deficient, and the

14

state habeas trial court, citing Strickland, found that counsel’s performance was not

15

deficient. (ECF No. 29-5 at 11-13). The Arizona Court of Appeals affirmed this

16

determination and denied Waldrep’s claims that his counsel coerced him to enter the plea

17

agreement, noting the transcript of the plea colloquy belied this claim. Waldrep, 2017

18

WL 5899910, at *1. Because the plea agreement was extremely advantageous to Waldrep

19

and there was substantial evidence of his guilt, his counsel’s performance was not

20

deficient nor coercive for advising him to accept the plea agreement. See, e.g., Weaver,

21

455 F.3d at 967.

22
23
24
25
26
27
28

13 Inter alia, Waldrep asserts his counsel’s performance was deficient because he advised
Waldrep to plead guilty under an unconstitutional statute. However, at the time of Waldrep’s
plea proceedings in 2016 no court had concluded Arizona’s child molestation statutes
unconstitutionally shifted the burden of proof of an essential element of the crime to the
defendant. See supra n.ll. Counsel s performance is not deficient for failing to be “prescient
about the direction the law will take.” Clark v. Arnold, 769 F.3d 711, 726-27 (9th Cir. 2014).
Therefore, the state appellate court’s determination that counsel’s advice to plead guilty was not
deficient because counsel advised Waldrep to plead guilty rather than raising the defense later
asserted in May was not an unreasonable application of federal law. See May v. Ryan, 766 F.
App’x 505, 506-07 & n.l (9th Cir. 2019).
-34-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 35 of 51

1

Additionally, Waldrep is unable to establish prejudice with regard to any of his

2

claims of pre-plea ineffective assistance of counsel because the admissible evidence

3

against Waldrep was substantial, and a lawyer’s advice to plead guilty in the face of

4

strong inculpatory evidence does not constitute ineffective assistance of counsel. See

5

Lambert v. Blodgett, 393 F.3d 943, 984 (9th Cir. 2004) (finding no Strickland prejudice

6

from counsel’s alleged failure to uncover evidence supporting the proposed defense prior

7

to the entry of a guilty plea where there was “overwhelming evidence of guilt” and “little

8

chance” that defense would have succeeded at trial); Sophanthavong v. Palmateer, 378

9

F.3d 859, 870-71 (9th Cir. 2004) (finding no Strickland prejudice where the petitioner’s

10

assertion that he would have rejected the plea offer and gone to trial had he been properly

11

advised was not credible in light of the substantial evidence of his guilt and much higher

12

potential sentence at trial).

13

To satisfy Hill's prejudice requirement of Waldrep must show that but for

14

counsel’s alleged errors he would have rejected the State’s plea offer and insisted on

15

facing trial on all counts alleged in the indictment, a likely conviction, and an effective

16

life sentence. Defense counsel’s understanding of the facts and law regarding the charges

17

against Waldrep and counsel’s performance were within objective standards of

18

reasonableness. Waldrep’s guilt of at least one of the charges was established through his

19

own admissions during the confrontation call (ECF No. 29-2 at 45-46), which did not

20

violate any of his federal constitutional rights and would have been admissible at trial.

21

The strong inculpatory evidence against Waldrep also included the victim’s statements

22

and Waldrep’s statements to the victim’s mother and his brother admitting his guilt.

23

Under the circumstances, counsel’s recommendation to accept the plea deal was

24

reasonable. Furthermore, Waldrep is unable to show that, had he gone to trial, he could

25

have obtained a better result. Waldrep’s counsel was able to negotiate a plea agreement

26

providing for a 17 to 24-year sentence, less than that usually and initially offered by the

27

prosecution. Additionally, by presenting mitigation evidence and ably arguing Waldrep’s

28

case to the sentencing judge, Counsel was able to achieve the least possible sentence

-35 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 36 of 51

1

allowed by the plea agreement. Because it is extremely unlikely that, but for counsel’s

2

alleged errors Waldrep would have chosen to proceed to trial and the outcome of his
criminal proceedings would have been more advantageous, his ineffective assistance of

4

counsel claims regarding the entry of his guilty plea fail pursuant to the doctrine of Hill.

5

Because Waldrep entered a knowing and voluntary guilty plea, and his plea was

6

not the result of ineffective assistance of counsel, the following claims for relief should

7

be denied: Ground 32 alleges counsel was ineffective for denying Waldrep’s “multiple

8

requests” to review and discuss the plea prior to his “inducement” to sign the “unread”

9

guilty plea with “threats, intimidation, undue influence, and misrepresentation.” (ECF

10

No. 1 at 25, ECF No. 8 at 22). This claim is belied by the record; Waldrep averred at his

11

plea hearing that nobody had forced, threatened, or coerced him in any way to sign the

12

plea agreement. (ECF No. 29-1 at 219-20). Ground 46 alleges counsel was ineffective for

13

allowing Waldrep to be induced by misrepresentations to sign the “unread” guilty plea.

14

(ECF No. 1 at 26; ECF No. 8 at 25). This claim belied by the record of the plea colloquy;

15

Waldrep specifically stated that he had read the agreement and initialed each paragraph

16

of the plea agreement. Ground 55 alleges Waldrep’s plea was coerced by

17

misrepresentations by the state court, the prosecutor, and his defense counsel. As noted

18

by Respondents, the statements that Waldrep asserts “coerced” his acquiescence to the

19

plea agreement “were merely accurate reflections of his dismal legal reality,” (ECF No.

20

29 at 77), i.e., the strength of the evidence against him, the unavailability of a defense of

21

intoxication or temporary insanity, the unavailability of a more lenient guilty plea, and

22

the prospect of an effective term of life imprisonment if he chose to reject the plea offer

23

and proceed to trial.

24

Ground 58 asserts defense counsel withheld exculpatory evidence from Waldrep

25

in order to induce him to plead guilty. (ECF No. 1 at 29; ECF No. 8 at 31, 94). Waldrep

26

describes the alleged exculpatory evidence as

27

28

deviation letters, mitigation materials, claims of constitutional violations
documented, prosecutorial misconduct, ineffective assistance of counsel
claims showing coercion, misrepresentation, abuse of discretion, judicial
-36-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 37 of 51

1

4

errors, Fourth, Fifth, Sixth, Fourteenth Amendment violations, Title III
§ 1983 Act violations, denied [right] to counsel, Miranda warnings (prior to
44 question interrogation), denied [right] not to self-incriminate, [right] to
remain silent, [right] against unlawful search and seizure, right to liberty,
due process rights [and] denied [right] to self representation.

5

(ECF No. 8 at 94). Waldrep asserts his brother mailed this “evidence” to counsel and that

6

the evidence was missing from his case file when counsel provided the file to him during

7

his post-conviction proceedings. {Id.) However, the “evidence” was not truly exculpatory

8

because none of this evidence would exculpate Waldrep given the weight of the

9

admissible evidence against him. Waldrep fails to establish a reasonable probability that

10

further investigation would have resulted in a more favorable plea bargain or an acquittal

11

at trial, and he has not produced sufficient objective evidence to establish he would not

12

have entered into the plea agreement but for counsel’s failure to further investigate. See

13

Lambert, 393 F.3d at 982 (where alleged deficiency was counsel’s failure to investigate a

14

potential defense, prejudice analysis is “objective” and “slim potential for success renders

15

highly doubtful any conclusion that [petitioner] suffered prejudice”).

2
3

16

The record in this matter establishes that Waldrep knowingly, voluntarily, and

17

intelligently pled guilty, which was the most intelligent choice among the alternative

18

courses of action available to him. Accordingly, his Grounds 32, 46, and 58 for relief

19

alleging that his guilty plea was not knowing, intelligent, or voluntary due to coercion,

20

should be denied on the merits.

21

Additionally, because his guilty plea was knowing and voluntary, all of Waldrep’s

22

pre-plea non-jurisdictional claims are waived, including Ground 1 (asserting that his

23

Fourth, Fifth, Sixth, and Fourteenth Amendment rights were violated when police used

24

the confrontation call to secure evidence, arrest him, indict him, and induce him to plead

25

guilty);14 Grounds 2(a) and 2(b) (asserting that the confrontation call amounted to an

26
27
28

14 As the state habeas trial court concluded (ECF No. 29-5 at 10-11), all of Waldrep’s
claims relating to the confrontation call are without merit; the federal courts have uniformly held
that confrontation calls do not violate the defendant’s Fourth and Sixth Amendment rights or the
defendant’s right to due process of law. See Illinois v. Perkins, 496 U.S. 292, 297 (1990);
Montgomery v. Morris, 2019 WL 1034732, at *3 (D. Ariz. Mar. 5, 2019); Leal v. Ryan, 2017
-37-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 38 of 51

1

involuntary confession to police because his attorney was not present and no Miranda

2

warnings were given); Ground 3 (asserting that he was deprived of his Sixth Amendment

3

right to represent himself on March 3, 2016);15 Ground 5 (asserting that his First

4
5
6

7
8
9
10
11
12

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

WL 3835938, at *16-17 (D. Ariz. June 9, 2017), report and recommendation adopted, 2017 WL
3783368 (D. Ariz. Aug. 31, 2017), certificate of appealability denied, No. 17-16897, 2018 WL
7821088 (9th Cir. Nov. 30, 2018), cert, denied, 140 S. Ct. 65 (2019). And because counsel’s
performance is not deficient nor prejudicial for failing to raise a non-meritorious argument,
Waldrep’s Strickland claims premised on counsel’s alleged “failure” to challenge the
confrontation call or the evidence derived therefrom, i.e., Grounds 2(a) and 41, are also without
merit. See, e.g., Reel v. Ryan, 2013 WL 2284988, *18 (D. Ariz. May 22, 2013). Additionally, a
Fourth Amendment claim is generally not cognizable in a federal habeas action. See Stone v.
Powell, 428 U.S. 465, 494 (1976); Crater v. Galaza, 508 F.3d 1261, 1269 (9th Cir. 2007).
It is arguable whether the entry of a knowing and voluntary guilty plea waives a claim
that a defendant was denied their right to self-representation pursuant to Faretta v California
422 U.S. 806, 807(1975).
Only one federal court has held that
defendant who pleads guilty
unconditionally may still maintain his Faretta challenge on appeal. In United
States v. Hernandez, 203 F.3d 614, 626-27 (9th Cir. 2000) (Reinhardt, J.), the
Ninth Circuit held that a guilty plea by a defendant wrongfully deprived of his
right to self-representation was automatically involuntary because the defendant
was “forced ... to choose between pleading guilty and submitting to a trial the
very structure of which would be unconstitutional.” Id. at 626; see also United
States v. Kaczynski, 239 F.3d 1108, 1116 (9th Cir. 2001) (following Hernandez as
binding circuit precedent).
Werth v. Bell, 692 F.3d 486, 496 (6th Cir. 2012). To the extent this claim is cognizable, it may be
denied on the merits because “the invocation of the right of self-representation must be clear,
unequivocal, and timely.” McCormick v. Adams, 621 F.3d 970, 978 (9th Cir. 2010). Waldrep did
not make a “clear and unequivocal” assertion of his right to self-representation, but instead
intimated to the state court that he might wish to go “pro per” if it would afford him the ability to
retain an investigator; this was not a “clear and unequivocal” assertion of his Faretta right. See
Woods v. Sinclair, 764 F.3d 1109, 1122 (9th Cir. 2014); Wafer v. Hedgpeth, 627 F. App’x 586,
587 (9th Cir. 2015). After discussing the issue with the settlement conference judge, Waldrep
apparently understood that he would not be appointed an investigator even if he opted to
represent himself and he never unequivocally asserted he wished to proceed pro per.
Additionally, “the right may be waived through [the] defendant’s subsequent conduct indicating
he is vacillating on the issue or has abandoned his request altogether.” Brown v. Waimvright, 665
F-2d 607, 611 (5th Cir. 1982). A defendant may be deemed to have abandoned any invocation of
Faretta when, as in this matter, the defendant acquiesces to counsel’s representation during
further proceedings. See McKaskle v. Wiggins, 465 U.S. 168, 183 (1984); Stenson v. Lambert,
504 F.3d 873 (9th Cir. 2007). After mentioning and apparently abandoning the option of
proceeding without counsel at the settlement conference, Waldrep consented to counsel
finalizing a plea agreement and counsel’s representation at his plea hearing and sentencing,
thereby acquiescing to representation by counsel.

-38-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 39 of 51

1

Amendment right not to bear witness against himself was violated by the confrontation

2

call); Ground 6 (asserting that the confrontation call violated his due process rights and

3

his Fourth Amendment rights to be free of illegal searches); Ground 7 (asserting the

4

confrontation call violated his Fourteenth Amendment right to equal protection);

5

Ground 8 (asserting that the confrontation call constituted a § 1983 violation); Ground 9

6

(asserting that the confrontation call constituted a conspiracy against his rights);

7

Ground 10 (asserting that the confrontation call deprived him of “Constitutional Rights);

8

Ground 11 (asserting that the confrontation call violated his Sixth Amendment right to

9

counsel); Ground 12 (asserting the trial court “lost jurisdiction” before his arrest and the

10

indictment and his conviction and sentence were void because “[w]hen petitioner’s Due

11

Process was violated by withholding Miranda Warnings [prior to the confrontation call],

12

All Jurisdiction Ceased. This fatally flawed the Indictment.”); Ground 13 (asserting a

13

“judicial abuse of discretion” based on allegedly coercive behavior of a judge during his

14

first settlement conference asserting that he would be better off if he took the plea, which

15

Waldrep alleges violated Arizona Rule of Criminal Procedure 17.4 and Federal Rule of

16

Criminal Procedure 11); Ground 14 (asserting his due process rights were violated by the

17

prosecutor’s statements during plea negotiations); Ground 15 (asserting his Fourteenth

18

Amendment rights to equal protection and due process were violated by the court, the

19

prosecutor, and defense counsel during one of his settlement conferences, and that if he

20

had been permitted to represent himself, he could have hired an investigator and expert

21

witnesses prior to the conference); Ground 17 (asserting the trial court violated his due

22

process rights by denying his motion to change counsel); Ground 18 (asserting

23

prosecutorial misconduct based on “overzealous, vindictive prosecution, withheld

24

exculpatory evidence, multiplicious [sic], overcharging, misrepresentations to grand jury

25

and court, false statements, presentation of void indictment to court”); Ground 53

26

(asserting Waldrep’s equal protection rights were violated when he was denied bail and

27

release); Ground 54 (asserting his right to be free from cruel and unusual punishment

28

under the Eighth Amendment was violated because he was denied bail and lost income

-39-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 40 of 51

1

during his pretrial proceedings); and Ground 60 (asserting Waldrep “suffered extreme

2

prejudice” because defense counsel was not present during his polygraph interview).

3

In claims 19 through 52 Waldrep asserts he was denied the effective assistance of

4

counsel. As noted supra and found by the Arizona Court of Appeals, all of Waldrep’s

5

allegations of pre-plea ineffective assistance of counsel, other than those asserting

6

counsel’s performance rendered his guilty plea invalid, were waived. Because Waldrep’s

7

guilty plea was knowing and voluntary, the waiver was valid and relief on these claims

8

must be denied. Because the plea was knowing and voluntary and Waldrep has failed to

9

satisfy the Hill test, Waldrep’s claims that his counsel’s performance rendered his guilty

10

plea invalid must also be denied because the claims are without merit and the Arizona

11

Court of Appeals’ denial of the claims was not clearly contrary to nor an unreasonable

12

application of federal law.

13

Grounds 19 and 30, construed broadly, summarily assert Waldrep was denied the

14

effective assistance of counsel as a result of counsel’s cumulative errors.17 In some cases,

15

although no single error is sufficiently prejudicial to warrant reversal, the cumulative

16

17
18
19
20
21
22
23
24
25
26
27
28

17 As his 19th claim for relief Waldrep asserts:
Petitioner suffered ‘extreme Ineffective Assistance of Counsel (IAC) PrejudiceMalpractice, Misrepresentation. Coercion, viol, of Rt. to Effective Councel (sic)
6th Amend, viol, of 14th Amend rights’ by Ct. Appointed, State Paid Counsel U
Workman, R. Kimble. Facts: This petitioner shows Cause and Prejudice, as
suffered Substantial Harm, Plaint. Fundamental Error in all critical stages of crim.
proceedings during 28 month incarceration before any trial; Pet. presents the Ct.
Record, Transcripts, Affidavits, documents (showing Colorable Claims - Thirty
Separate-Indiv, violations of rights, that would have led to different outcome, had
he been afforded his guaranteed Const, legal representation, per “Strickland.”
(ECF No. 1 at 24).
As his 30th claim for relief Waldrep asserts: “Denied Sound, Guaranteed Rt. to Legal
Representation to meet Ariz. Rules of Ct., Ariz. Const, and US Constitutional Rt. to counsel.
(Exh. W.).” (ECF No. 1 at 25). Waldrep’s index of exhibits to his petition describes Exhibit W is
a reproduction of the Arizona Rules of Court - “Attorney duties,” . (ECF No. 1 at 37), although
this document is not attached to the pleading. Nonetheless, an attorney’s alleged failure to
comply with a “norm of practice” stated in a state rule or state bar standard, which are considered
to be “only guides” as to counsel’s conduct in defending a case, do not constitute a per se
violation of the federal constitution’s guarantee of the effective assistance of counsel. See, e.g.,
Roe v. Flores-Ortega, 528 U.S. 470, 479 (2000).

-40-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 41 of 51

1

effect of several errors may still sufficiently prejudice a defendant to require his

2

conviction be overturned. Alcala v. Woodford, 334 F.3d 862, 893-95 (9th Cir. 2003).

3

Cumulative error is more likely to be found prejudicial when the state’s case against the

4

defendant is weak. Cf. Parle v. Runnels, 505 F.3d 922, 928 (9th Cir. 2007) (discussing

5

cumulative error in the context of allegations of the violation of due process, and

6

concluding: “If the evidence of guilt is otherwise overwhelming, the errors are considered

7

‘harmless’ and the conviction will generally be affirmed.”). In this matter, however, all of

8

Waldrep s ineffective assistance of counsel claims are based upon conclusory and

9

unsupported allegations, or are without merit. When there is not even a single

10

constitutional error, there is nothing to accumulate to satisfy the prejudice prong of the

11

Strickland test. Hayes v. Ayers, 632 F.3d 500, 524 (9th Cir. 2011); Mancuso v. Olivarez,

12

292 F.3d 939, 957 (9th Cir. 2002).

13

In Grounds 20 through 27 Waldrep asserts counsel denied him access to and

14

review of discovery, counsel was not present during “critical stages” of his pretrial

15

proceedings, he was not allowed to present his chosen “defense strategy,” and he was

16

denied an investigator.18 In Ground 28 Waldrep alleges counsel was ineffective for

17

failing to challenge “unconstitutional statutes” or file a motion to suppress the evidence

18

of the confrontation call. All of these claims of pre-plea error were waived by Waldrep’s

19

knowing and voluntary guilty plea. Additionally, as previously noted, counsel was not

20

ineffective for failing to assert that Arizona’s child molestation statute was

21
22
23
24
25
26
27
28

The state habeas trial court concluded Waldrep’s claims that his counsel was not
present at critical stages” of his proceedings, in addition to his challenges to counsel’s strategic
decisions, were without merit because he was unable to establish a legitimate factual basis for
these claims and he was unable to establish prejudice arising from any alleged error. (ECF No.
29-5 at 11-12). Under the “doubly deferential” standard of review, these conclusions were not an
unreasonable application of Strickland-, counsel’s tactical decisions, such as the choice of a
defense strategy, pursuing a particular line of inquiry, deciding what pretrial motions to file,
and/or the employment of an investigator, are given “great deference” and “’[o]nce counsel
reasonably selects a defense, it is not deficient performance to fail to pursue alternative
defenses.’” Elmore v. Sinclair, 799 F.3d 1238, 1250 (9th Cir. 2015), quoting Rios v. Rocha, 299
F.3d 796, 807 (9th Cir. 2002).
-41 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 42 of 51

1

unconstitutional nor was a motion to suppress the evidence of the confrontation call

2

likely to succeed.

3

In Ground 29 Waldrep alleges counsel’s performance was deficient for failing to

4

prepare a mitigation package. This claim fails because, inter alia, counsel did present

5

mitigation to the sentencing court and Waldrep’s sentence was mitigated; he received the

6

lowest possible sentence under the plea agreement. Accordingly, Waldrep is unable to

7

establish he was prejudiced by this alleged error of counsel.

8

Ground 31(a) alleges counsel was ineffective for failing to challenge the purported

9

violation of Waldrep’s rights during the settlement conferences. Ground 31(b) alleges

10

counsel “failed to protect 14th [A]mend[ment] [rights] in plea proceedings critical stage.”

11

(ECF No. 8 at 22). These claims are unsupported and conclusory and were both waived

12

by Waldrep’s knowing and voluntary guilty plea. Additionally, the claims are without

13

merit because Waldrep is unable to establish prejudice. Waldrep’s counsel obtained an

14

advantageous plea deal, which deviated to Waldrep’s benefits from the State’s standard

15

and initial offer, and Waldrep was sentenced to the least possible term of imprisonment

16

allowed by the plea agreement.

17

Ground 32 alleges counsel was ineffective for denying Waldrep’s “multiple]

18

requests” to review and discuss the plea agreement prior to his “inducement” to sign the

19

“unread” guilty plea. This claim is belied by the record, including Waldrep’s statements

20

at his plea colloquy. Furthermore, Waldrep is unable to establish prejudice because the

21

plea agreement was reviewed with Waldrep by the Commissioner at the plea colloquy.

22

Ground 33 alleges Waldrep’s counsel was ineffective because Waldrep was denied

23

the opportunity to present “[the] warnings, side effects from [various prescribed drugs]”

24

acknowledged by the trial court. (ECF No. 1 at 25; ECF No. 8 at 23). Ground 34 alleges

25

counsel was ineffective because Waldrep was denied the equal protections and privileges

26

afforded to other defendants in similar situations for “defenses, mitigation, greatly

27

reduced sentencing, and plea offers for other defendants.” (ECF No. 1 at 25; ECF No. 8

28

at 23.) Ground 35 alleges counsel was ineffective because Waldrep was denied citations

-42-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 43 of 51

1

to

2

sentencing. (ECF No. 1 at 25). Ground 36 alleges Waldrep’s counsel was ineffective

recent, relevant cases” showing his disproportionate treatment, punishment, and

because Waldrep was “denied information” on involuntary intoxication, diminished
4

capacity, and lack of intent. (Id.) Ground 37 alleges Waldrep’s counsel was ineffective

5

because counsel failed to challenge the alleged “presumption of guilt” or the prosecutor’s

6

statements that voluntary intoxication is not a defense. (Id.) Ground 38 alleges Waldrep’s

7

counsel was ineffective because Waldrep was denied investigation of “mental impairment

8

from prescribed medication.” (Id.).

9

To the extent these claims were not waived they all fail on the merits because

10

Waldrep is unable to establish counsel’s performance was deficient for failing to present

11

a “defense” contrary to Arizona law. Nor can Waldrep demonstrate prejudice arising

12

from counsel’s alleged deficient performance. The record indicates Waldrep’s counsel

13

was able to negotiate a plea agreement providing for minimum sentence of 17 years’

14

imprisonment, far less than what other defendants accused of similar crimes were offered,

15

and that due to counsel’s presentation of mitigation Waldrep received the minimum

16

sentence allowed by the plea agreement.

17

Ground 40 alleges counsel was ineffective for failing to inform Waldrep of his

18

constitutional right to effective counsel or “waivers of constitutional rights.” (ECF No. 1

19

at 26; ECF No. 8 at 24). Ground 42 alleges counsel was ineffective for failing to inform

20

Waldrep of any minimum sentence prior to his signing of the allegedly unread plea

21

agreement. (ECF No. 1 at 26; ECF No. 8 at 24). These claims fail on the merits because

22

Waldrep’s bald statements in his federal habeas petition are insufficient to overcome the

23

statements made at his plea colloquy and his signature on the plea agreement affirming he

24

had read the plea agreement and discussed the plea agreement with his counsel, and that

25

he understood the plea agreement, the rights he was waiving by pleading guilty, and the

26

sentence he faced by entering into the plea agreement.

27

Ground 41 alleges counsel was ineffective for failing to protect Waldrep’s

28

Fourteenth Amendment rights during a “critical stage” of plea negotiations. (ECF No. 1

-43 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 44 of 51

1

at 26). This claim was waived by Waldrep’s knowing and voluntary guilty plea. In

2

Waldrep s memorandum, he adds that his “conviction [was] based on involuntary

3

confession obtained through police coercion violates due process clause.” (ECF No. 8 at

4

24). This portion of the claim in effect argues that the confrontation call violated

5

Waldrep’s federal constitutional rights, which is an incorrect statement of the law, and

6

that counsel was ineffective for failing to assert that the confrontation call violated

7

Waldrep’s federal constitutional rights. As previously noted, the confrontation call did

8

not violate Waldrep’s constitutional rights and counsel’s performance is neither deficient

9

nor prejudicial for failing to raise a non-meritorious claim for relief.

10

Ground 44 alleges counsel was ineffective for failing to challenge the state court’s

11

jurisdiction due to a “fatally flawed indictment,” which was allegedly “multiplicious

12

[sic]” and had “due process violations.” (ECF No. 1 at 26; ECF No. 8 at 16-18, 32).

13

Waldrep asserts the indictment was invalid because it was “multiplicitous,” i.e., it

14

charged him with five crimes for what he argues was the same act. In his state habeas

15

action Waldrep asserted a claim that the indictment “was prejudicial and defective

16

because the two counts of child molestation are lesser included offenses of the sexual

17

conduct with a minor charges.” (ECF No. 29-5 at 10). The state habeas trial court denied

18

relief on this claim, stating:

19
20
21
22
23
24
25

26
27

. . . The Defendant further argues that this is double jeopardy as
these offenses all arise from the same conduct. However, “[m]ultiplicitous
charges alone do not violate double jeopardy, only resulting multiple
convictions or punishments are prohibited.” Ortega, id. at 323 []. The
indictment was not defective because both child molestation and sexual
conduct with a minor offenses were charged.
The Defendant plead to and was sentenced on one count of child
molestation and two counts of attempted child molestation. Those offenses
occurred on the same day with the same victim, but the transcript of the
change of plea proceeding clarifies that there were three distinct times
where the Defendant touched or tried to touch the vaginal area of the victim
on that day. The Defendant has not raised a colorable claim of double
jeopardy.

28

-44-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 45 of 51

1

(Id.). The Arizona Court of Appeals did not discuss this claim in affirming the trial

2

court’s denial of Rule 32 relief.

3

The indictment against Waldrep was not “multiplicitous” because there was a

4

distinct and separate act of sexual conduct underlying each of the counts alleged in the

5

indictment19 and “[a] state may punish separate offenses arising out of the same

6

transaction without violating the double jeopardy clause.” Walker v. Endell, 850 F.2d

7

470, 476 (9th Cir. 1987). See also Rhoden v. Rowland. 10 F.3d 1457, 1462 (9th Cir.

8

1993) (it is “well settled that a single transaction can give rise to distinctive offenses

9

under separate statutes without violating the Double Jeopardy Clause”). Because an

10

allegation that the indictment included multiplicitous charges was without merit,

11

counsel’s performance was neither deficient nor prejudicial for failing to raise this

12

issue.20

13

Ground 47 alleges counsel was ineffective for purposely keeping Waldrep

14

“unknowing of . . . rights, uninformed of discovery, charges, possible challenges, and

15

defense strategies.” (ECF No. 1 at 26; ECF No. 8 at 25). This claim was waived by

16

Waldrep’s guilty plea and is belied by the record, which indicates Waldrep was

17

thoroughly familiar and informed of the charges against him, the evidence against him,

18

and the strength of his proposed defenses.

19

Ground 51 alleges counsel was ineffective for failing to provide Waldrep with

20

“Representation that adheres to [Arizona Rules of Court] Rule 42 ER 1.2, 2003 ER 1.3,

21

1.4, 1.6.” (ECF No. 1 at 27).22 Ground 52 alleges counsel was ineffective for failing “to

22
23
24
25
26
27
28

19 The police detective told the grand jury that during the forensic interview the victim
indicated Waldrep touched her anus with his hand; touched her anal area with his penis; touched
her breasts, and twice licked her anus. (ECF No. 29-1 at 36-37).
20 Furthermore, any deficiency in the indictment would not have deprived the trial court
of jurisdiction. “[DJefects in an indictment do not deprive a court of its power to adjudicate a
case.” United States v. Cotton, 535 U.S. 625, 630-31 (2002). Arizona has plenary jurisdiction
over the crimes committed within its borders.
22 In his memorandum in support of his petition Waldrep “skips” from his 47th claim for
relief to his 53rd claim for relief. (ECF No. 8 at 25-30). Waldrep apparently refers to the Arizona
Superior Court Rules of Professional Conduct applicable to attorneys practicing in the state
-45 -

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 46 of 51

1

pursue a matter on behalf’ of Waldrep, and for failing “to take measures to vindicate a

2

client’s cause or” endeavor, and because counsel “failed to explain ‘Client’s Rights’ in

3

Client-Attorney Relationship.” or to discuss his rights as a client. (Id.). These claims were

4

waived by Waldrep’s guilty plea because they involve pre-plea actions not related to the

5

voluntary and knowing nature of Waldrep’s guilty plea and, additionally, the claims are

6

without merit. Even if counsel’s actions did not comply with the cited Rules of Court,

7

this is not per se unconstitutionally deficient performance23 and Waldrep has not

8

established any resulting prejudice. Furthermore, to the extent Waldrep asserts he and his

9

counsel disagreed as to certain aspects of pretrial strategy, it is well-established that the

10

Sixth Amendment guarantees effective assistance of counsel, not a “meaningful

11

relationship” between an accused and his counsel. Morris v. Slappy, 461 U.S. 1, 14

12

(1983).

13

E.

14

Waldrep’s allegations of sentencing error were not waived by his entry of a

15

knowing and voluntary guilty plea. Ground 39 alleges counsel was ineffective for failing

16

to challenge or review the presentence report with Waldrep. (ECF No. 1 at 26). In his

17

supporting memorandum Waldrep asserts he was “denied access to read, review,

18

challenge PSR,” adding the allegation that “counsel [was] not present at critical stages of

19

PSR interviews with probation.” (ECF No. 8 at 24). Federal Rule of Criminal Procedure

Merits of Claims Not Procedurally Defaulted or Waived

20
21
22
23
24
25
26
27
28

courts. Rule ER 1.2 defines the scope of representation and the allocation of authority between
the client and counsel; Rule 1.3 provides “A lawyer shall act with reasonable diligence and
promptness in representing a client;” Rule 1.4 provides guidelines for communication between
counsel and their client; and Rule 1.6 provides guidance regarding confidentiality of information.
23 Prevailing norms of practice as reflected in American Bar Association
standards and the like . . . are guides to determining what is reasonable, but they
are only guides. No particular set of detailed rules for counsel’s conduct can
satisfactorily take account of the variety of circumstances faced by defense
counsel or the range of legitimate decisions regarding how best to represent a
criminal defendant. Any such set of rules would interfere with the constitutionally
protected independence of counsel and restrict the wide latitude counsel must
have in making tactical decisions.
Strickland, 466 U.S. at 688-89.
-46-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 47 of 51

1

32 and federal cases interpreting this rule require the probation officer interviewing a

2

defendant to: give the defendant’s attorney notice and a reasonable opportunity to attend

3

the interview; provide the presentence report to the defendant and the defendant’s

4

attorney at least 35 days before sentencing; and require the sentencing court to “verify

5

that the defendant and the defendant’s attorney have read and discussed the presentence

6

report and any addendum to the report” and give the defendant an opportunity to

7

comment on excluded portions of the report. However, these provisions of the federal

8

rules are not constitutional rights and do not apply to state court proceedings. See United

9

States ex rel. Gaugler, All F.2d 516, 523 (3d Cir. 1973). Arizona’s Rules of Criminal

10

Procedure are less exacting than Rule 32 of the Federal Rules of Criminal Procedure and

11

require only that counsel be given a copy of the presentence report. See Ariz. R. Crim. P.

12

26. Waldrep does not allege that counsel failed to receive a copy of the presentence report

13

and counsel is not ineffective for failing to follow federal procedural rules. Nor has

14

Waldrep demonstrated any prejudice from the alleged violations. He fails to explain how

15

he would have received a different sentence if he had been allowed access to “read,

16

review,” or “challenge” the PSR.

17

Ground 43 alleges counsel was ineffective because Waldrep was denied

18

“knowledge and opportunity to request a mitigation hearing to present expert testimony.”

19

(ECF No. 1 at 26; ECF No. 8 at 25). Waldrep is unable to establish he was prejudiced by

20

counsel’s alleged failure to present expert testimony regarding his use of a testosterone

21

supplement or the deer antler spray to mitigate his sentence because the mitigation

22

evidence presented by counsel was successful in achieving the last possible sentence

23

allowed by the plea agreement.

24

Ground 45 alleges counsel was ineffective for failing to disclose the State’s

25

“aggravating factors” to Waldrep and failing to challenge them with evidence in support

26

of mitigation. (ECF No. 1 at 26). Ground 48 alleges counsel was ineffective because

27

Waldrep was denied a presentencing conference and hearing to challenge alleged errors

28

and inaccuracies in the presentence report. (ECF No. 1 at 26). Ground 49 alleges counsel

-47-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 48 of 51

1

was ineffective because Waldrep was denied his right to review and discuss the

2

presentence report prior to sentencing. (Id.). Ground 50 alleges counsel was ineffective

C1

because Waldrep was denied the opportunity to present his own presentence report to the

4

court. (Id). Ground 59 alleges that defense counsel presented “knowingly false

5

aggravating statements

6

prejudicial sentencing. (ECF No. 1 at 29; ECF No. 8 at 31). All of these claims of

7

ineffective assistance of counsel with regard to Waldrep’s sentence fail because Waldrep

8

is unable to establish prejudice, i.e., that he would have received a lesser sentence but for

9

these errors.

on the record, causing Waldrep to receive disproportionate,

10

Ground 57 alleges that Waldrep’s two lifetime probation sentences violate a

11

“statute against double punishments.” (ECF No. 1 at 18; ECF No. 8 at 6, 16-18, 30-31,

12

32). Ground 61 alleges that the court wrongfully deleted Waldrep’s “PSR Supplement,”

13

allegedly attached to the presentence report. (ECF No. 1 at 29; ECF No. 8 at 32-34).

14

Ground 62 alleges that Waldrep’s two lifetime probation sentences violate an Arizona

15

statute. (ECF No. 1 at 30).24 Ground 63 alleges that the court failed to ask Waldrep if he

16

had read or discussed the presentence report. (Id.). These claims fail because a federal

17

habeas court is “bound by a state court’s construction of its own penal statutes.” Souch v.

18

Schaivo, 289 F.3d 616, 623 (9th Cir. 2002). See also Missouri v. Hunter, 459 U.S. 359,

19

366 (1983). Additionally, “[ajbsent a showing of fundamental unfairness, [even] a state

20

court’s misapplication of its own sentencing laws does not justify federal habeas relief.”

21

Christian v. Rhode, 41 F.3d 461, 469 (9th Cir. 1994). See also Lewis v. Jeffers, 497 U.S.

22

764, 780 (1990); Cacoperdo v. Demosthenes, 37 F.3d 504, 506 (9th Cir. 1994) (holding

23
24
25
26
27
28

24 In Ground 62, Waldrep contends his two lifetime probation sentences violate “U.S.C.
§ 2099” and Arizona Revised Statutes § 13-116 because “in no event may [they] be other than
concurrent.” (ECF No. 1 at 30). The sentences of lifetime probation were ordered to be served
concurrently. (ECF No. 29-3 at 4). He further argues a sentencing enhancement above the
statutory maximum can only be decided by a jury. (ECF No. 1 at 30). He claims that his sentence
for a first time offender, 17 year flat, [with] additional two lifetime sentences of probation
exceed maximum allowed for by law.” (Id). As previously noted, Waldrep admitted to the
factual predicate for his convictions and was sentenced to the presumptive sentence and,
therefore, he fails to state an Apprendi claim. See Blakely, 542 U.S. at 301-03.
-48-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 49 of 51

1

the petitioner’s claim that the state court erred in imposing consecutive sentences was not

2

cognizable in federal habeas); Hendricks v. Zenon, 993 F.2d 664, 674 (9th Cir. 1993)
(concluding the defendant’s claim that the state court was required to merge his

4

convictions was not cognizable); Campbell v. Blodgett, 997 F.2d 512, 522 (9th Cir. 1992)

5

( [a]s the Supreme Court has stated time and again, federal habeas corpus relief does not

6

lie for errors of state law”); Watts v. Bonneville, 879 F.2d 685, 687 (9th Cir. 1989)

7

(holding the petitioner’s claim that the trial court violated a provision of state law in

8

sentencing him was not cognizable).

9

In Ground 65,. Waldrep argues that defense counsel withheld “newly discovered

10

evidence’-’ for two years before finally turning it over to Waldrep. (ECF No. 1 at 33-35).

11

He asserts the denial of these materials enabled counsel to misrepresent the law and facts

12

and force, induce, and coerce Waldrep into an involuntary, and unknowing guilty plea.

13

(ECF No. 8 at 37). The alleged newly-discovered evidence is reproduced at ECF No. 1-6

14

at 17-22 in case number CV-17-00025 PHX SPL, Waldrep’s prior federal habeas action

15

which was dismissed without prejudice. The “evidence” consists of three internet

16

printouts, including one dated October 20, 2012, and a bibliography referencing articles

17

dating from 1994 and 2000, which describe a “psychotic reaction” associated with

18

testosterone-boosting products, including “deer velvet preparation” and “deer antler

19

velvet.” Waldrep contends defense counsel prejudiced his criminal proceedings by

20

deliberately withholding this “crucial evidence” that supported Waldrep’s claims that his

21

actions were caused by his application of topical testosterone and his use of deer antler

22

spray.

23

This “evidence” does not support a conclusion that Waldrep’s guilty plea was

24

unknowing or involuntary. Waldrep repeatedly referenced this information in the

25

settlement conferences, at his plea colloquy, and at his sentencing. Waldrep was

26

accurately informed by the settlement conference judges and his counsel that this

27

information did not provide a defense to the charges against him because he voluntarily

28

used the testosterone products. The issue was not whether there was “proof’ of the fact

-49-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 50 of 51

1

that these products could cause a “psychotic reaction,” but whether Waldrep voluntarily

2

used the products, a fact he never denied. Furthermore, Waldrep is not able to establish

3

any prejudice arising from his inability to present this specific “evidence” to mitigate his

4

sentence because he received a mitigated sentence and the lowest possible sentence

5

possible pursuant to the plea agreement and the plea agreement was more lenient than

6

that offered by the State in cases involving the same type of offenses to which Waldrep

7

admitted.

8

defense instead of pursuing a plea agreement, the defendant must show that the defense

9

likely would have been successful at trial. Hill, 474 U.S. at 59; Lambert, 393 F.3d at 979.

10

Given that voluntary intoxication is not a defense in Arizona, Waldrep cannot meet this

11

burden.

Moreover, if a defendant claims that counsel did not pursue a particular

12

III.

13

Waldrep’s claims for federal habeas relief were procedurally defaulted in the state

14

courts because they were not presented to the Arizona Court of Appeals, or they were

15

waived by his entry of a knowing and voluntary guilty plea, or they are without merit or

16

are not cognizable in a federal habeas action. “Habeas corpus is an ‘extraordinary

17

remedy available only to those ‘persons whom society has grievously wronged and for

18

whom belated liberation is little enough compensation.’” Juan H. v. Allen, 408 F.3d

19

1262, 1270 (9th Cir. 2005), quoting Brecht v. Abrahamson, 507 U.S. 619, 633-340

20

(1993). Waldrep’s federal constitutional rights were not violated by his state court

21

criminal proceedings.

Conclusion

22
23
24

IT IS THEREFORE RECOMMENDED that Waldrep’s petition seeking a writ
of habeas corpus be denied.

25

This recommendation is not an order that is immediately appealable to the Ninth

26

Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1), Federal Rules of

27

Appellate Procedure, should not be filed until entry of the District Court’s judgment.

28

-50-

Case 2:17-cv-04609-DWL Document 53 Filed 12/20/19 Page 51 of 51

1

Pursuant to Rule 72(b), Federal Rules of Civil Procedure, the parties shall have

2

fourteen (14) days from the date of service of a copy of this recommendation within

3

which to file specific written objections with the Court. Thereafter, the parties have

4

fourteen (14) days within which to file a response to the objections. Pursuant to Rule 7.2

5

of the Local Rules of Civil Procedure for the United States District Court for the District

6

of Arizona, objections to the Report and Recommendation may not exceed seventeen

7

(17) pages in length.

8

Failure to timely file objections to any factual or legal determinations of the

9

Magistrate Judge will be considered a waiver of a party’s right to de novo appellate

10

consideration of the issues. See United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th

11

Cir. 2003) (en banc). Failure to file timely objections to any factual or legal

12

determinations of the Magistrate Judge will constitute a waiver of a party’s right to

13

appellate review of the findings of fact and conclusions of law in an order or judgment

14

entered pursuant to the recommendation of the Magistrate Judge.

15

Pursuant to 28 U.S.C. foil. § 2254, R. 11, the District Court must “issue or deny a

16

certificate of appealability when it enters a final order adverse to the applicant.” The

17

undersigned recommends that, should the Report and Recommendation be adopted and,

18

should Waldrep seek a certificate of appealability, a certificate of appealability should be

19

denied because he has not made a substantial showing of the denial of a constitutional

20

right.

21

Dated this 20th day of December, 2019.

22
23
24
25
26

Camille D. Bibles
United States Magistrate Judge

27
28

-51 -

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 2 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

ROGER DARRYL WALDREP,

No.

Petitioner-Appellant,
v.
DAVID SHINN, Director; ATTORNEY
GENERAL FOR THE STATE OF
ARIZONA,

20-16148

D.C. No. 2:17-cv-04609-DWL
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

TALLMAN and LEE, Circuit Judges.

Appellant has filed a combined motion for reconsideration and motion for
reconsideration en banc (Docket Entry No. 22).
The motion for reconsideration is denied and the motion for reconsideration
en banc is denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord.
6.11.
All other pending motions and requests are denied. No further filings will
be entertained in this closed case.

Additional material
from this filing is
available in the
Clerk's Office.

